<html>
<title> - PRESERVING PUBLIC SAFETY AND NETWORK RELIABILITY IN THE IP TRANSITION</title>
<body><pre>[Senate Hearing 113-576]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-576

 PRESERVING PUBLIC SAFETY AND NETWORK RELIABILITY IN THE IP TRANSITION

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                                    ______

                       U.S. GOVERNMENT PUBLISHING OFFICE 

93-481 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

              SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, 
                            AND THE INTERNET

MARK PRYOR, Arkansas, Chairman       ROGER F. WICKER, Mississippi, 
BARBARA BOXER, California                Ranking Member
BILL NELSON, Florida                 ROY BLUNT, Missouri
MARIA CANTWELL, Washington           MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire,
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 5, 2014.....................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Wicker......................................     2
Statement of Senator Klobuchar...................................    36
Statement of Senator Johnson.....................................    38
Statement of Senator Ayotte......................................    40
Statement of Senator Nelson......................................    42
Statement of Senator Markey......................................    43
Statement of Senator Booker......................................    48

                               Witnesses

Henning Schulzrinne, Chief Technology Officer, Federal 
  Communications Commission......................................     4
    Prepared statement...........................................     5
Jonathan Banks, Senior Vice President, Law and Policy, United 
  States Telecom Association (USTelecom).........................     8
    Prepared statement...........................................     9
Jodie Griffin, Senior Staff Attorney, Public Knowledge...........    12
    Prepared statement...........................................    13
Colette D. Honorable, President, National Association of 
  Regulatory Utility Commissioners (NARUC).......................    22
    Prepared statement...........................................    23
Gigi Smith, President, Association of Public-Safety 
  Communications Officials (APCO) International..................    29
    Prepared statement...........................................    30

                                Appendix

Response to written questions submitted to Henning Schulzrinne 
  by:
    Hon. Mark Pryor..............................................    53
    Hon. Cory Booker.............................................    54
Response to written question submitted by Hon. Mark Pryor to 
  Jonathan Banks.................................................    54

 
 PRESERVING PUBLIC SAFETY AND NETWORK RELIABILITY IN THE IP TRANSITION

                              ----------                              


                         THURSDAY, JUNE 5, 2014

                               U.S. Senate,
Subcommittee on Communications, Technology, and the 
                                          Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:15 a.m. in 
Room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Well, we will call the hearing to order. 
Thank you for coming to the Senate Subcommittee on 
Communications, Technology, and the Internet, the Committee on 
Commerce, Science, and Transportation.
    So I want to thank all the witnesses for being here today, 
and we will have a number of colleagues coming and going this 
morning. We have a number of other hearings and markups, et 
cetera, going on, some action on the floor as well. So some of 
our colleagues will be coming and going.
    So let me just say good morning to everyone, and welcome to 
today's hearing. We are here today to discuss the public safety 
and network reliability aspects of the ongoing evolution of our 
Nation's communications networks.
    Today, the Nation's voice networks are in the midst of 
multiple transitions that promise to change how we communicate. 
First, the transmission infrastructure that carries our voice 
communication is moving away from reliance on copper to fiber 
optics. Next, the so-called ``circuit-switched protocols'' that 
have long underpinned traditional telephone service are 
transitioning to newer Internet protocols, or IP systems. And 
finally, many Americans are choosing to substitute wireless 
service for traditional wired voice communications.
    However, there may be challenges that consumers, carriers, 
and the public safety officials face as our networks 
increasingly rely on all-IP technology and fiber optic 
infrastructure. For example, in my state, Arkansas recently 
suffered a severe tornado. Tragically, we lost 18 Arkansans in 
that, and significant property damage as well. Thirty-six 
thousand homes lost power.
    I have heard nothing but very positive things from the 
Arkansas Department of Emergency Management and the Governor's 
office about how our local telephone companies reacted during 
and immediately after the storm. I would expect those companies 
in Arkansas and others around the country to continue their 
commitment to public safety, no matter the technology used to 
transmit phone calls over our networks.
    Consumers have come to trust the reliability and resiliency 
of the old copper telephone network. They cannot afford to wait 
for a disaster to strike to find out that there are gaps in our 
communications networks in an all-IP world. So I want to be 
sure that we are exploring the public safety implications of 
these transitions and asking the right questions proactively, 
but also, I do want to stress that the IP transition presents 
an important opportunity for consumers and communication 
providers.
    New technologies bring potential of new services and 
possibilities to make our networks even more efficient and to 
bring down costs for consumers. Rather than be an impediment to 
this progress, it is my intention to explore this transition in 
a thorough manner to identify any challenges, discuss their 
implications in depth, and work toward solutions in advance to 
mitigate any negative impacts.
    So I want to recognize the efforts by the Federal 
Communications Commission, AT&T, and other carriers who are 
working with the Commission to carefully and deliberately 
explore the implications of the IP transition through the FCC's 
transition trials. Ultimately, it is my hope that through these 
trials, all stakeholders can work together to proactively 
address any issues revealed in the trials, protect consumers, 
and preserve public safety. But I also expect Congress to 
maintain close oversight over this process. A transition of 
this magnitude deserves nothing less.
    And again, I want to thank you all again for being here, 
and I want to hear your perspective on this important 
discussion. I look forward to your testimony, and I want to 
turn it over to the Ranking Member, Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Chairman Pryor.
    This hearing deals with preserving public safety and 
network reliability in the IP transition. This hearing is--it 
certainly hits home not only for Arkansans, but for 
Mississippians, who experienced devastating storms this year 
also.
    In late April, tornados ravaged communities in Mississippi 
and Arkansas, taking innocent lives and causing extensive 
damage. Despite the devastation, we can be thankful for the 
technology that provided critical information ahead of time, 
alerting people to take shelter and saving hundreds of our 
fellow citizens. The swift action of our weather forecasters, 
local officials, and first responders validated the importance 
of technology and communication when disaster strikes.
    The modernization of our Nation's communications network, 
from legacy copper line telephone infrastructure to high-speed 
fiber and wireless broadband, is expected to maximize the 
benefits of IP broadband networks to all Americans. These 
networks will provide far more capable and efficient voice 
services, allow faster and more robust data transfers, deliver 
21st century education and health services, and enhance public 
safety communications, like Next Generation 911.
    There will be a host of issues raised when we discuss IP 
transition, but nothing is more important than ensuring a 
seamless transition for our first responders and the citizens 
they serve and protect. The capacity for this technology to 
protect citizens not only must be preserved, but also improved 
by this exciting new transition.
    The FCC has moved the ball forward in constructive ways, 
authorizing voluntary IP transition trials. These trials will 
test and analyze the impact of moving away from legacy 
communication networks, particularly in regard to public 
safety. The Commission held a public IP transition workshop in 
April that focused on the transition's effects on critical 
public safety, emergency response, and national security 
functions.
    I would like to welcome the FCC's Chief Technology Officer, 
who provided important technical expertise to the workshop and 
is here today to do the same. I welcome the rest of our 
witnesses, who represent a cross-section of key stakeholders, 
including State and public safety officials, consumers, 
broadband providers themselves, who have invested significant 
capital and resources to deploy modern infrastructure.
    I am glad we are all here today. The hearing will be brief. 
We are going to let you start talking.
    Ensuring a smooth path for public safety must be an ``all 
hands on deck'' effort with Congress, the FCC, and stakeholders 
working together to scrutinize the IP transition's impact on 
emergency communications in this country.
    So, Mr. Chairman, thank you again for holding this 
important hearing.
    Senator Pryor. Thank you, Senator Wicker, and I want to 
thank you and your staff for being flexible because, as you all 
know, we have moved the time here from 10 a.m., to 9:30 a.m., 
to 9:15 a.m., to try to accommodate Senators' schedules, and so 
thank you all for doing that.
    We are also going to make a slight change when it comes to 
you all's opening statement. Mr. Schulzrinne has a 
presentation, which will take 5 minutes. I think we are asking 
everybody else to limit their remarks to 3 minutes, if we can.
    So let me go ahead and introduce the whole panel. Then I 
will recognize Mr. Schulzrinne.
    Mr. Henning Schulzrinne, Chief Technology Officer at 
Federal Communications Commission, will be our first witness.
    Then we will have Jonathan Banks, Senior Vice President, 
Law and Policy, USTelecom.
    Then we will have Jodie Griffin, Senior Staff Attorney, 
Public Knowledge.
    And then we will have Colette Honorable. She is the Chair 
of the Board and President of the National Association of 
Regulatory Utility Commissioners, and she is also Chairman of 
the State of Arkansas's State Public Service Commission.
    And Ms. Gigi Smith, President of APCO International.
    So, Mr. Schulzrinne, let me recognize you for your 
presentation. Thank you.

               STATEMENT OF HENNING SCHULZRINNE,

                   CHIEF TECHNOLOGY OFFICER,

               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Schulzrinne. Thank you, Chairman Pryor, Ranking Member 
Wicker, and members of the Subcommittee.
    I appreciate the opportunity to appear before you today to 
provide some technical context regarding the technology 
transitions that you referred to and, in particular, public 
safety. My name is Henning Schulzrinne, and I am the Chief 
Technology Officer for the Federal Communications Commission. 
As CTO, I am pleased to discuss the technical foundation for 
today's topic but will respectfully decline comment on any 
policy-related matters.
    The transition to communication networks based on Internet 
protocols, short IP, offers an opportunity to improve emergency 
communications unprecedented since the conversion from analogue 
to digital systems in the 1970s and 1980s. However, these very 
same changes also pose new challenges to performance, 
reliability, and sustainability of emergency communication 
systems.
    As you hinted at, about 70 percent of all 911 calls 
originate on a mobile phone today. And of the 79 million 
residential landline connections in the United States, 34 
million are now interconnected Voice over IP, as opposed to 
TDM.
    We can also no longer take for granted that all households 
have a TV, a landline phone with a central office battery back-
up, or even a battery-powered transistor radio. Or that, say, a 
college student will be watching TV when the emergency alert 
tone sounds to seek shelter.
    The transition to IP is multifaceted and encompasses three 
layers. At the application layer, voice, video, and text 
services are enabled by new Internet application layer 
protocols, instead of the old Signaling System No. 7. At the 
transport layer, IP offers an application-neutral mechanism 
that replaces the old-time division multiplexing foundation. 
The physical layer, dominated by copper loops, is integrating 
fiber, wireless, coax, and satellite into a unified whole.
    However, even as the transition is taking place, we should 
not forget that large parts of the voice network are still 
using the same TDM technology and hardware developed and 
deployed, in some cases, 30 or 40 years ago, in particular for 
public safety, so-called CAMA trunks originally developed for 
operator services. Unfortunately, CAMA trunks have played a 
role in two large-scale outages of 911 systems in the last few 
years.
    Spare parts, investment, and expertise needed to maintain 
these legacy networks are becoming scarce. Yet, as FCC Chairman 
Wheeler has stated, public safety is one of the core values 
that must be sustained during the Nation's transition to all-IP 
networks.
    Two technical challenges that will need to be addressed in 
this transition are back-up power and emergency location. No 
longer will we have access to back-up power provided by the 
central office, as it has been the case for many years, but 
there are also new technical opportunities to leverage in-
system power through user exchangeable batteries--for example, 
batteries that look similar to what you might have as back-up 
on your cell phone--or energy-efficient network termination 
devices that will make it possible to sustain uninterrupted 
communication for both voice and, increasingly important, for 
Internet services, even if commercial power should be 
disrupted.
    The second topic, location technology, such as GPS, has 
been very successful, along with network-based triangulation, 
to locate callers for outdoor 911 calls. Unfortunately, both 
technologies have limitations that make them less than suited 
when people cut the cord and use wireless calls to call 911. 
They are either not accurate enough, or they do not function at 
all. For example, GPS generally does not work well indoors.
    However, fortunately, the transition to IP-based and 
network-based technologies is also spurring new investments in 
technologies that, while not originally designed for location 
determination such as in-building communication infrastructure, 
allows us to greatly improve the reliability and availability 
of location information. For example, Wi-Fi, Bluetooth beacons, 
and distributed antennae systems could be used to locate 
callers inside buildings.
    To succeed in meeting the challenges and leverage the 
opportunities, all stakeholders must work together to ensure 
that every 911 call receives the appropriate response, that 
every American is alerted when danger is imminent, whether they 
use old technology or new technology.
    Thank you.
    [The prepared statement of Mr. Schulzrinne follows:]

 Prepared Statement of Henning Schulzrinne, Chief Technology Officer, 
                   Federal Communications Commission
Introduction
    Chairman Pryor, Ranking Member Wicker, and Members of the 
Committee, I appreciate the opportunity to appear before you today to 
provide an overview of the technology transitions associated with 
migration to Internet Protocol (``IP'') as well as the challenges and 
opportunities confronting us as we move forward through these 
transitions.
    As you know, what we commonly refer to as the ``IP transition'' is 
not a single transition, but consists of multiple transitions all 
happening at the same time.
    The elements of these technology transitions are a key concern of 
the Commission, with public safety as one of the fundamental values 
that need to be protected during the transition.
    We are witnessing simultaneous transitions in three technology 
layers, with intertwining impacts:

  1.  At the application layer, voice services based on Time-Division 
        Multiplexing (TDM) are rapidly moving to Voice-over-Internet 
        Protocol (VoIP). This transition is occurring whether the 
        network is wireless, where the technology is known as VoLTE, or 
        for cable, fiber and copper networks. Technologically, the 
        protocols used for these services are very similar.

  2.  At the network transport layer, TDM circuits served as the 
        content-neutral conveyor of information. Internet Protocol 
        packets are now replacing these circuits.

  3.  Finally, our core access networks were dominated by copper 
        telephone wires, but are becoming much more diverse at the 
        physical layer, with fiber, coaxial cable, wireless, and 
        satellite added to the technology mix.

    A much more diverse technological environment offers opportunities 
for advancing consumer welfare and public safety. For example, we can 
now bring IP connectivity to Public Safety Answering Points (PSAPs), 
the centers that handle the Nation's 911 calls, in many more ways than 
we were able to do before. But it also offers challenges in the sense 
that the technology is both more complicated and lacks some of the 
features that we previously relied upon as part of our public safety 
infrastructure.
    Let me turn to some of the challenges that I believe we face going 
forward. The challenges are related in multiple ways and also have a 
generational component. Much of the legacy technology that underlies 
our existing telecommunication voice infrastructure was designed and 
built in the 1970s and 1980s. This infrastructure is rapidly aging, and 
we are also seeing generational turnover of the individuals that have 
designed, built and maintained that infrastructure.
    Moreover, in the last few years, PSAPs and emergency management 
offices have had to deal with an increasing set of challenges, many 
induced by the technology changes described earlier. Some of these 
challenges include:

  <bullet> Combatting Telephony Denial of Service (TDOS) attacks, where 
        criminals try to extort money from employees of hospitals, 
        schools and PSAPs, and, if that fails, barrage the organization 
        with phone calls, typically with spoofed caller ID and 
        originating abroad. These phone calls then prevent incoming 
        calls from reaching the business line of PSAPs, for example.

  <bullet> Delivering robust and reliable emergency alerts, such as 
        Wireless Emergency Alerts (WEA) sent to mobile phones. These 
        alerts provide crucial warnings to deal with imminent threats 
        to life and property, e.g., tornado warnings advising to ``seek 
        shelter now'', but the alert systems are less well-suited to 
        provide more extensive information or to support post-disaster 
        recovery. Public safety officials seeking to provide more 
        information to the public are often forced to improvise using 
        cobbled-together technologies such as blogs, e-mail lists, and 
        Twitter.

  <bullet> Preventing outages of critical communications networks. 
        VoIP-based systems and centralized ALI databases can support a 
        large number of PSAPs with a very small number of servers. 
        However, recent outages have illustrated that there is a risk 
        of increased impact when these systems fail. Designing and 
        testing such systems carefully to avoid single points of 
        failure and to recover quickly remains an open challenge.

  <bullet> Leveraging new technologies and services. For example, many 
        Americans now expect to be able to reach public safety by text, 
        not just voice call. People with hearing or speech disabilities 
        cannot readily use voice 911; victims or witnesses of domestic 
        abuse may fear that a voice call will place them in danger. 
        While the four major national cellular operators have 
        voluntarily agreed to make text-to-911 available nationwide 
        earlier last month, relatively few PSAPs are ready to receive 
        text messages.

  <bullet> Even for traditional mobile voice 911 calls, determining the 
        caller's location has become more challenging. As mandated by 
        Commission rules, wireless providers need to deliver the 
        caller's geographic location to the PSAP within specified 
        accuracy bounds. However, the requirements were drafted when 
        wireless phones were largely used while driving or outdoors. As 
        has been reported extensively,\1\ an increasing number of 
        consumers no longer have traditional residential landlines. 
        Also, emergency calls may be placed from work places, using the 
        caller's own mobile device rather than a desk phone. It is 
        estimated \2\ that about 70 percent of all emergency calls are 
        now originating on mobile phones, and 56 percent of those 
        mobile calls are placed from indoor locations. The most common 
        high-accuracy technology, GPS, generally does not work indoors 
        due to signal attenuation, except in light-duty (wood frame) 
        construction. Thus, new location technologies are needed. I 
        will discuss some of the options later on.
---------------------------------------------------------------------------
    \1\ CDC, Wireless Substitution: Early Release of Estimates From the 
National Health Interview Survey, July-December 2012; at http://
www.cdc.gov/nchs/data/nhis/earlyrelease/wireless201
306.pdf.
    \2\ See sources cited in FCC Acts To Help Emergency Responders 
Locate Wireless 911 Callers, February 21, 2014; at http://www.fcc.gov/
document/fcc-acts-help-emergency-responders-locate-wireless-911-callers
---------------------------------------------------------------------------
Household Habits and Communication Resources are Changing
    For many decades, emergency communication professionals could 
safely assume that households had a common set of communication 
resources: a landline phone, with the central office able to power the 
phone over the copper line to the home when commercial power to the 
home was disrupted; a television with an antenna, tuned to a relatively 
small number of local stations; and a transistor radio supporting both 
AM and FM, with the capability to run on battery power.
    Newer households look very different: most likely, they won't have 
a landline phone and, if they do, the cable or fiber-to-the-home VoIP 
service is likely to only provide a few hours of standby service on a 
local battery if there is a power disruption. Today's houses may also 
not have a television or use it much less frequently, relying on a 
laptop or tablet for watching video. Thus, Emergency Alert System (EAS) 
alerts broadcast via radio and television may not reach such 
households. The Internet, whether delivered via a home Wi-Fi network to 
a tablet or home PC or via a mobile wireless network to a smartphone, 
is often the primary means of keeping up with news and communicating 
with family and friends. These technologies may also rely on battery 
back-up options than are time-limited. For example, a smartphone 
battery may only sustain device operation for eight to 12 hours.
    Emergency communication, in particular, has not always kept up with 
these changes. Many communities have set up automated ``reverse 911'' 
systems, but these typically only reach landlines. The Wireless 
Emergency Alert (WEA) system can only transmit 90 characters and cannot 
contain web links; thus, messages generally advise recipients to tune 
to local media--using a television set or radio that the household may 
not have. Communities seeking to convey information to their 
constituents often use commodity services, such as community mailing 
lists, Twitter feeds, Facebook pages, or local web pages to convey 
emergency-related information.
    The development of IP-based networks may create opportunities to 
improve emergency communications. For example, agencies such as the 
Federal Emergency Management Agency (FEMA) could provide common, cloud-
hosted emergency management systems to communities. Since Internet 
advertising is typically localized, the potential exists to provide 
emergency alerts via ad delivery networks that would complement EAS or 
Integrated Public Alert Warning System (IPAWS) alerts without requiring 
communities to make expensive technological upgrades.
Indirect 911
    Currently, the most common way to reach the PSAP is by a human-
initiated voice call. However, in the IP environment, other home safety 
devices, e.g., network-connected smoke detectors, may provide 
alternative means of reaching emergency assistance. Currently, many 
alert monitoring services rely on operators in call centers to contact 
PSAPs. With NG911, there are opportunities for such monitoring services 
to convey much more information to the PSAP, but common standards and 
operational procedures are needed.
Technology Opportunities in all-IP networks
    One of the most promising opportunities for IP-based emergency 
management networks is the ability to separate the provision of 
technology services from answering calls. Thus, instead of each PSAP or 
county provisioning their own NG911 services, they can share 
communication services, while deciding separately what the most 
efficient PSAP size is.
    If emergency calls provide more information, it may also be much 
easier to prioritize calls, and recognize calls or messages that are 
reporting a known emergency, as often happens for fires or accidents.
Indoor Location
    Probably the most immediate challenge for emergency calls is to 
maintain the location accuracy that has existed for 9-1-1 landline 
calls since the 1980s. As I noted earlier, as consumers have dropped 
landlines in favor of mobile devices, this capability is no longer 
assured. As the Commission recently acknowledged, people are making 
more wireless calls to 911 from indoors, and these calls are more 
difficult to locate. There are, however, new and promising indoor 
location technologies emerging. And the Commission is currently looking 
at new rules that would improve indoor location accuracy.
Conclusion
    The technology transitions offer both unprecedented opportunities 
and challenges to emergency communication. As I have tried to 
illustrate, emergency services can leverage the new technologies to 
improve efficiency and effectiveness. I look forward to exploring many 
of these issues along with others to see how we can use the technology 
opportunities, not just those offered by classical emergency response 
and alerting technologies, but also by consumer technologies to make 
everybody safer, make public safety more efficient, and ensure networks 
are responsive to both the cultural and technology changes that our 
citizenry is undergoing.
    Thank you very much.

    Senator Pryor. Thank you.
    Mr. Banks?

  STATEMENT OF JONATHAN BANKS, SENIOR VICE PRESIDENT, LAW AND 
     POLICY, UNITED STATES TELECOM ASSOCIATION (USTelecom)

    Mr. Banks. Good morning. Good morning, Chairman Pryor, 
Ranking Member Wicker, and the members of the Subcommittee.
    My name is Jonathan Banks, and I am the Senior Vice 
President for Law and Policy at USTelecom. Thank you for 
holding this hearing.
    USTelecom represents broadband companies, ranging from some 
of the largest companies in the U.S. to some of the smallest 
cooperatives and family owned telecom providers in rural 
America. They serve some of the most rural areas in the 
country, as well as the most urban, and use a broad range of 
technologies, including broadband and Internet protocol, to do 
so.
    To begin, I would like to note the recent tragedy caused by 
an extremely powerful tornado touching down in Arkansas, north 
of Little Rock, in late April. The tornado caused substantial 
loss of life and damage. Communication services were affected, 
with poles blown down, cables severed, facilities damaged, and 
cell towers destroyed.
    One local carrier, Windstream, was somehow able to keep a 
switch up and running in a building that lost its walls to the 
tornado's winds and suffered substantial rain damage. This 
storm illustrates that no network is or can be 100 percent 
reliable, but a well-coordinated response in Arkansas got 
networks up and running relatively quickly.
    Careful preparation for emergencies can make a huge 
difference in the effect that disasters have on communications 
networks and the customers they serve. Our industry has long 
participated in emergency readiness planning with Government 
partners, and we will continue to do so.
    The transition to modern broadband networks and IP services 
promises enormous benefits to our country. The FCC's National 
Broadband Plan says that building these networks is the great 
infrastructure challenge of our time. The communications 
industry is stepping up to the plate, investing about $685 
billion over the last decade in infrastructure, with about $70 
billion of that being invested just last year.
    We agree that as we navigate through this transition, that 
there are key values that cannot be left behind. FCC Chairman 
Wheeler describes these values as making up a network compact 
between communications providers and the public. Network 
reliability and public safety are essential elements of this 
compact, and they are key values of our industry.
    Our industry has a long history of working with Federal and 
State governments, public utility commissions, the public 
safety community, and industry standards bodies on these 
issues. We have been working with these partners to understand 
the transition to broadband and IP services for well over a 
decade. I provide a brief summary of some of these efforts in 
my written testimony.
    In closing, I would like to reiterate our commitment to 
working with this committee and our full range of partners to 
ensure that the promise of broadband connectivity and the power 
of IP services deliver to consumers the safe and secure 
networks and robust capabilities that will empower them for the 
21st century.
    Thank you.
    [The prepared statement of Mr. Banks follows:]

 Prepared Statement of Jonathan Banks, Senior Vice President, Law and 
         Policy, United States Telecom Association (USTelecom)
    Chairman Pryor, Ranking Member Wicker, and Members of the 
Subcommittee:

    Thank you for the opportunity to testify on this important topic. 
My name is Jon Banks, and I serve as Senior Vice President of Law and 
Policy at the United States Telecom Association. USTelecom represents 
innovative broadband companies ranging from some of the largest 
companies in the U.S. economy to some of the smallest cooperatives and 
family-owned telecom providers in rural America. Our members offer a 
wide range of communications services on both a fixed and mobile basis, 
and the overwhelming majority of them offer advanced broadband services 
including voice, video, and data. They serve some of the most rural 
areas in the country as well as the most urban and use a broad range of 
technologies, including Internet Protocol, to do so. The customers that 
rely on our networks include consumers, businesses large and small, and 
government entities at the local, state, and Federal levels. Of 
particular importance given the topic of this hearing, they include 
first responders and Public Safety Answering Points.
    Our industry has long recognized that a safe and secure 
communications network is vital to public safety and to our Nation's 
prosperity. We have spent decades building and maintaining that network 
and working with the public safety community and our government 
partners to ensure that first responders and other officials can 
communicate during natural or man-made disasters, and that consumers 
can call for help during an emergency. From the 1960s and 1970s when 
911 services began to be provided through the deployment of upgraded 
E911 services and Next Generation 911, we have worked to deliver 
reliable service. Our member companies' commitment to providing highly 
reliable service to our customers throughout the country and to working 
with the public safety community, our government partners, and industry 
standards bodies remains undiminished as the country moves to newer, 
more modern communications networks. In fact, the transition to these 
newer, more modern broadband networks holds great promise for improved 
emergency communications and services as well as more robust and 
reliable networks.
    Much has changed since the early days of making 911 a reality. Over 
the last decade, communications companies have been investment leaders 
in our country, putting over $671 billion dollars to work in building 
and upgrading communications infrastructure. The wireline industry 
alone invested $278 billion over this period, accounting for about 41 
percent of total investment, with the remainder made up by investments 
in wireless and cable infrastructure. And this level of investment is 
continuing. USTelecom estimates that investment in broadband and IP 
communications infrastructure very likely exceeded $70 billion in 2013, 
surpassing the average level of investment of about $66 billion 
annually over the last decade.
    The result of this continuing huge investment is that consumers and 
businesses today have multiple new broadband networks available to them 
that are far more robust than the old telephone network. Building these 
broadband networks--fixed and mobile--is the great infrastructure 
challenge of our time. As the National Broadband Plan notes, meeting 
this challenge can produce enormous benefits:

        Broadband is a foundation for economic growth, job creation, 
        global competitiveness and a better way of life. It is enabling 
        entire new industries and unlocking vast new possibilities for 
        existing ones. It is changing how we educate children, deliver 
        health care, manage energy, ensure public safety, engage 
        government, and access, organize and disseminate knowledge.\1\
---------------------------------------------------------------------------
    \1\ National Broadband Plan at XI.

    By continuing to invest on this massive scale, the industry has 
made great strides in meeting this infrastructure challenge. Today, 
over 99 percent of Americans have access to broadband service at the 
FCC defined capacity of 4 Mbps downstream and 1 Mbps upstream. Ninety-
two percent of the population has access to robust wireline 
infrastructure with 88 percent of the population having access to two 
or more wired networks. Ninety-nine percent have access to mobile 
service and 90 percent have access to 4 or more separate mobile 
networks. Our members are working to build and operate Gigabit and 
fiber-to-the home networks in urban and rural areas across the country. 
Cable systems are upgrading their networks to provide faster service. 
Fast LTE mobile networks are also growing quickly, providing more 
alternatives for consumers.
    Removing obstacles to broadband deployment will help drive this 
process, and the White House has engaged industry on examining barriers 
to deployment across federally owned and managed land. Another way to 
incent additional investment would be to remove outdated regulations on 
traditional phone companies. These regulations ``require certain 
carriers to maintain POTS [plain old telephone service]--a requirement 
that is not sustainable--and lead to investments in assets that could 
be stranded,'' and divert investment away from new networks and new 
services.\2\
---------------------------------------------------------------------------
    \2\ Id. at 59.
---------------------------------------------------------------------------
    Ensuring that broadband and mobile networks reach everywhere 
throughout our country is a goal we must continually strive to meet. In 
the most rural areas of our country, this will require governmental 
support because there is no private business case that can support 
building and operating broadband networks in these areas. The FCC's 
universal service program can play an essential role here, as can state 
programs that support communications infrastructure. Our industry 
continues to work to ensure that universal service programs continue to 
support the delivery of robust communications services in high cost 
areas of our country in the most efficient and effective way possible.
    One result of all this investment in newer, more modern 
technologies is consumers have been choosing newer broadband and mobile 
technologies because they offer a plethora of options that were not 
previously available to meet consumers' communications needs. USTelecom 
projects that, by the end of this year, only one-quarter of the 
households in the country will continue to be served by traditional 
phone service. In some states this number may be as low as 15 percent 
of households remaining on that traditional network. By the end of this 
year, about 45 percent of households will have chosen to drop 
traditional phone service entirely, choosing instead to rely on mobile 
service for their voice needs, both inside and outside the home. 
According to the Centers for Disease Control, in many states over 50 
percent of households have already cut the cord and chosen to rely on 
mobile service. The remaining 30 percent of households will have chosen 
from among a range of newer Voice over Internet Protocol services, 
often delivered by cable companies, for their voice needs at home. Of 
course, many households will choose to have both wireless and wired 
options available for calling. About 89 percent of households have at 
least one wireless phone, allowing multiple options for communications. 
Only about 9 percent of households are dependent solely on a wired 
option for calling.
    This transition to broadband networks and IP services is well 
underway today as consumers and businesses continue to make choices 
among a range of competitive communications options. The transition to 
broadband and IP services is not an ``if'' phenomenon--much of it has 
happened--but a question of how to best manage the transition. And, in 
particular, how to ensure that public safety and network reliability 
are preserved and that we leverage the unique capabilities of broadband 
and IP to deliver 21st century public safety services. For example, 
making the added functionality of next generation 911 available to 
allow pictures and video to be delivered to PSAPs and first responders 
could significantly improve public safety. Our industry looks forward 
to working with the public safety community and governmental entities 
to make NG911 a reality. And for consumers, voice communication is 
obviously not the only functionality that the IP transition enables. 
For example, when it comes to public safety and health care benefits, 
more and more senior citizens, people with disabilities, and medical 
patients living in rural America are benefiting from technologies such 
as home health monitoring and other health-related applications.
    Fortunately, the communications industry has seen other important 
technology transitions all the way through that can provide models for 
ensuring the IP transition leaves no one behind. In 2002, for example, 
the transition from analog to digital mobile service was well underway 
from a consumer perspective. That year, the FCC concluded that its 
mandate that carriers continue to provide an analog signal in addition 
to a digital signal was no longer necessary to achieve national 
coverage and incent competition. Further, the FCC found that the analog 
mandate was imposing unnecessary costs on carriers and hindering the 
efficient use of spectrum. Thus, the FCC scheduled an end for the 
analog mandate setting February 18, 2008, as the date at which carriers 
could move to providing solely digital service. In the interim period, 
the FCC worked with carriers and specific populations that could have 
been adversely affected by the transition to ensure that no one was 
left behind.
    Planning for the transition to IP networks has been going on within 
communications companies for quite some time and with our government 
partners as well. Much of this planning has focused on network safety 
and security issues. For example, the President's National Security 
Telecommunications Advisory Committee (NSTAC), which provides the 
President with a unique source of national security and emergency 
preparedness communications policy expertise from leaders in the 
communications industry, has been examining and reporting on security 
and reliability issues involved in the transition to IP and broadband 
networks since at least 1999. In 2005, the NSTAC noted that the 
convergence of wireless, wireline, and Internet Protocol (IP) networks 
is causing a shift in the way that governments and critical 
infrastructures will meet their needs for national security and 
emergency preparedness communications today and in the future. The 
NSTAC has examined a broad range of infrastructure, security and 
operational vulnerabilities stemming from network convergence and its 
task forces have provided recommendations to mitigate the 
vulnerabilities. USTelecom and its members have been an integral part 
of NSTAC and will continue to work within the Committee to ensure that 
public safety remains a priority during the IP Transition.
    Our members also continue to work closely with the Department of 
Homeland Security through, for example, the Communications Sector 
Coordination Council and the Critical Infrastructure Partnership 
Advisory Council, on network security and reliability issues and the 
transition to IP networks. A concise review of some of these activities 
can be found in the Critical Infrastructure Partnership Advisory 
Council's 2013 Annual Report.
    In addition, USTelecom has long been active with the FCC in this 
area. Chairman Wheeler has often mentioned the importance of public 
safety and security to the compact between providers of voice service 
and their customers and the need for the FCC to ensure that key values 
like these are properly imported into the IP and broadband world. We 
agree. In response to Congress's directive that the agency develop a 
National Broadband Plan that would ``ensure that all people of the 
United States have access to broadband capability,'' the FCC put 
together an extremely valuable roadmap to an IP and broadband future. 
The Plan explains that ``broadband can bolster efforts to improve 
public safety and homeland security by allowing first responders to 
send and receive video and data, by ensuring all Americans can access 
emergency services and improving the way Americans are notified about 
emergencies.'' \3\ We remain committed to working with the FCC on the 
implementation of these recommendations.
---------------------------------------------------------------------------
    \3\ Id. at XIV.
---------------------------------------------------------------------------
    The FCC's Communications Security, Reliability and Interoperability 
Council (CSRIC) has played, and will continue to play, an important 
role in planning for a seamless transition. CSRIC working groups 
comprised of knowledgeable industry participants have produced a broad 
range of reports and recommendations covering key topics on emergency 
preparedness, network reliability and network security. The FCC 
recently convened a new CSRIC industry working group to examine and 
report on the powering of customer premises equipment such as telephone 
handsets given the growing consumer preference for VoIP service. VoIP 
networks generally do not benefit from network powering available 
through traditional phone networks, instead relying on commercial power 
and battery back-up. The working group intends to recommend outreach 
and communications strategies for increasing consumer awareness of 
back-up power needs and developing best practices for powering consumer 
devices during commercial power failures.
    Finally, a number of standards-setting bodies are also engaged in 
planning for the IP transition. Indeed, the transition ties together 
much of the work done by one of our industry's leading standards 
bodies, the Alliance for Telecommunications Industry Solutions, or 
ATIS. Specific to the subject of this hearing, for example, ATIS has 
convened a task force to examine the IP transition's potential effect 
on important public safety applications such as alarm circuits to local 
fire and police departments and circuits that monitor railroad 
crossings.
    USTelecom and our members believe that our Nation's 21st century 
networks should provide 21st century public safety solutions. We look 
forward to working with this subcommittee, our full range of 
governmental partners including the White House, the Federal 
Communications Commission, Department of Commerce, Department of 
Homeland Security, state and local governments and public utility 
commissions, the public safety community (including APCO and NENA), and 
industry standards bodies to ensure that the promise of broadband 
connectivity and the power of IP services deliver to consumers the safe 
and secure networks and robust capabilities that will empower them for 
the 21st century.

    Senator Pryor. Thank you.
    Ms. Griffin?

   STATEMENT OF JODIE GRIFFIN, SENIOR STAFF ATTORNEY, PUBLIC 
                           KNOWLEDGE

    Ms. Griffin. Chairman Pryor, Ranking Member Wicker, and 
members of the Subcommittee, thank you for inviting me to 
testify today.
    My name is Jodie Griffin, and I am a Senior Staff Attorney 
at Public Knowledge, an organization that advocates for the 
public's access to knowledge and open communications platforms.
    The phone network transition presents tremendous potential 
advantages for our Nation, but we need to make sure these 
transitions result in a meaningful step forward for every 
person who depends on the network. Americans trust the 
protections of the phone network. We conduct our business and 
personal communications, assuming that the phone network will 
just work because it always has.
    During emergencies, we can call for help from police, 
firefighters, and hospitals. In the rare instance that any part 
of the system breaks down, local, State, and Federal 
authorities intervene as if our lives depend on it, because 
they do.
    In January, in a unanimous bipartisan vote, the Federal 
Communications Commission recognized that our phone network 
policies must serve certain basic, enduring values: public 
safety and national security, universal access, competition, 
and consumer protection. Our policies in the network transition 
must serve all of these values.
    This hearing focuses on public safety and reliability, but 
a conversation about these values will always entail the rest 
of the network compact. After all, when you need to make an 
emergency call, what you really need is a reliable network to 
make that call. A person can't call 911 if she doesn't have 
phone service in the first place, and if she lives in a rural 
area, she may waste precious time trying to get connected.
    New technologies have great promise, but they don't always 
meet the critical needs for a reliable telecommunications 
network. We have already seen reports of wireless carriers 
providing insufficient location data to public safety answering 
points, or in the event of a power outage, fiber-based services 
will require battery back-up, unlike traditional self-powered 
copper lines, and wireless services will be useless if the cell 
towers also lose power.
    Public safety services and reliability are so firmly 
ingrained in our network now, many consumers may simply assume 
new technologies will give them the same guarantees they have 
in the existing network. If, for example, a customer doesn't 
realize his fiber-based service needs battery back-up until the 
power has already gone out, he can't prepare for a prolonged 
outage.
    It is critical to ensure the FCC has the authority it needs 
to preserve the network compact and serve its fundamental 
values. In light of the recent Net Neutrality ruling from the 
D.C. Circuit, policymakers must make sure the FCC can implement 
rules to require carriers to complete calls and provide basic 
service, even after the network has moved to IP, or wireless or 
fiber infrastructure.
    To be clear, no one is suggesting we should hold back on 
technology. The question is how to make this technology work 
for all of the 300 million people who rely on our network every 
day. The underlying technology may be changing, but the 
essential services and consumers' expectations for them remain 
the same, and our national policies must reflect that fact.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Jodie Griffin follows:]

      Prepared Statement of Jodie Griffin, Senior Staff Attorney, 
                            Public Knowledge
    Chairman Pryor, Ranking Member Wicker, and Members of the 
Subcommittee, thank you for this opportunity to discuss the IP 
transition, public safety, and network reliability. My name is Jodie 
Griffin and I am a Senior Staff Attorney at Public Knowledge, a 
nonprofit public interest organization that promotes the public's 
access to information and culture through open, competitive, 
universally accessible, and affordable communications networks.
Introduction
    The transition of our wireline networks to Internet Protocol (IP)-
based services is a tremendous opportunity for our nation, but we must 
make sure the transition results in an actual upgrade in technology 
without a downgrade in the services upon which Americans depend. We are 
now in the midst of the transition: carriers are already actively 
moving their networks from the traditional Time-Division Multiplexing 
(TDM) protocol to IP-based technology, and from copper infrastructure 
to wireless service or fiber. The Federal Communications Commission 
(FCC) has responded to these technological shifts by collecting public 
comments, initiating a series of trials, and beginning the process of 
forming a new framework to handle the policy questions raised by these 
transitions.
    In the network transition, the stakes are high, and it is critical 
for policymakers to ensure that everyone continues to have access to a 
reliable network for personal, business, and emergency communications. 
In addition to bringing new opportunities, the phone network transition 
presents risks, including concerns the new networks will lack important 
features that consumers have counted on for decades. This means 
policymakers at all levels of government must ensure the transition is 
handled responsibly and everyday Americans are better off as a result 
of the transition.
    The phone network in the U.S. has quietly and reliably provided 
benefits to the American public for over 100 years. These benefits have 
become so firmly ingrained in the U.S. economy, public safety systems, 
and personal communications that users take for granted the policies 
that make them possible. These benefits were not a happy accident--they 
were the result of deliberate communications policies that demanded a 
telecommunications network that served its users first and foremost.
    One of the things we've come to love about our phone network is the 
ability to conduct our business and personal communications as if we 
can always trust that the network will just work--because it will. We 
can choose the type of phone we use. When the power goes out during a 
natural disaster, our phones--and the central offices that service 
them--will keep working. In times of emergency, we can always call for 
aid from police, firefighters, and medical teams. When someone calls a 
friend that call will always go through--regardless of which carriers 
the two users subscribe to or where they each live. When the bill comes 
for that call, the user can rest assured that there will be no 
fraudulent charges and the carrier will not have ``traded'' her to 
another carrier without her permission. If a user changes phone 
companies, she can keep her phone number. We know that we can benefit 
from the innovations and features built on the phone network because it 
is an open platform: innovations like the Internet, new handsets, 
calling cards, and collect calls all arose because of the network's 
openness. And in the rare instance that any part of this system breaks 
down, we know that there are government authorities at the local, 
state, and Federal levels equipped to fix the problem and protect 
users' interests.
    Every single one of these benefits is the result of deliberate 
policy choices that served specific basic values. Our phone network 
became the unparalleled success we know today because our policymakers 
valued five fundamental principles: (1) service to all Americans; (2) 
competition and interconnection; (3) consumer protection; (4) network 
reliability; and (5) public safety.\1\ These values are no less 
relevant and, if anything, are even more important as we begin the 
transition to the next iteration of our Nation's communications 
networks.
---------------------------------------------------------------------------
    \1\ See Jodie Griffin and Harold Feld, Five Fundamentals for the 
Phone Network Transition, Public Knowledge (July 2013).
---------------------------------------------------------------------------
    As we move forward in the network transition, we cannot step back 
from the basic commitments that have protected consumers and promoted 
affordable communications service for decades. We must ensure the next 
generation of our communications networks are a true step forward for 
everyone and no one is left worse off as a result of the transition.
Basic Voice Service is Still Important
    Even as we move to new technologies that bring exciting new 
opportunities for customers to access the Internet and other IP-based 
services, it is important to remember that basic voice service is still 
vital to public safety as well as the day-to-day personal and business 
communications of millions of people across the Nation. This means our 
national policies should be shaped with a mind toward preserving the 
protections and benefits people currently rely on while encouraging new 
opportunities for better or more efficient service.
    It is important to note that 96 percent of U.S. residents subscribe 
to some kind of telephone service.\2\ Of those, over 100 million people 
rely on traditional copper POTS (Plain Old Telephone Service). 5 
percent of the country relies exclusively on POTS--that's 15 million 
people who rely solely on traditional phone service.\3\ Which, 
incidentally, means the remaining 85 million people subscribing to POTS 
do so despite also having a mobile phone or other voice product. We can 
safely assume those 85 million people do not simply enjoy writing two 
checks each month. Rather, traditional phone service must offer those 
users something that newer technologies currently do not.
---------------------------------------------------------------------------
    \2\ Universal Service Monitoring Report, Wireline Competition 
Bureau, FCC, at 41, Table 3.1 (Oct. 2013), available at http://
transition.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/
Monitor/2013_Monitoring_Report.pdf.
    \3\ Anna-Maria Kovacs, Telecommunications Competition: The 
Infrastructure-Investment Race, Internet Innovation Alliance (Oct. 
2013), http://internetinnovation.org/images/misc_content/study-
telecommunications-competition-09072013.pdf.
---------------------------------------------------------------------------
    Unfortunately, we are already seeing complaints arise across the 
country that indicate the network compact may start fraying at the 
edges if policymakers don't step in to protect consumers. As Public 
Knowledge, The Utility Reform Network, and several other state consumer 
advocates and public interest groups have noted, reports have surfaced 
across the country indicating carriers are forcing customers off of 
traditional copper-based phone service.\4\ Complaints from customers in 
California, Maryland, New York, New Jersey, Illinois, and the District 
of Columbia have stated that they are being involuntarily moved to 
fiber or IP-based service (or some combination thereof), even if those 
new technologies fail to serve all of the users' needs or will be more 
expensive. What's more, this may only be the tip of the iceberg. After 
all, in deregulated states where the utilities commissions have no 
authority over quality of service or pricing for basic service, state-
level authorities may not be able to even collect data from customer 
complaints.
---------------------------------------------------------------------------
    \4\ Letter from Jodie Griffin, Senior Staff Attorney, Public 
Knowledge, et al. to Julie A. Veach, Chief, Wireline Competition 
Bureau, FCC (May 12, 2014), available at http://www.public
knowledge.org/assets/uploads/blog/14.05.12_Copper_Letter.pdf.
---------------------------------------------------------------------------
    We have also already seen complaints from rural residents 
experiencing degraded service due to rural call completion problems. As 
I will discuss below, the IP transition can create unexpected problems 
in rural customers' service even without any parties necessarily acting 
in bad faith. This is exactly why the FCC must continue to have 
authority to handle unanticipated problems and ensure customers 
continue to have reliable service.\5\ Finally, the FCC's Wireline 
Competition Bureau recently found that the average rate for basic voice 
service in urban areas is $20.46, indicating that even basic service is 
not as inexpensive as some may have assumed.
---------------------------------------------------------------------------
    \5\ To that end, the Public Safety and Economic Security 
Communications Act is an important step forward in protecting rural 
customers relying on a dependable phone network. See Public Safety and 
Economic Security Communications Act of 2014, S. 2125, 113th Cong. 
(2014), available at https://www.govtrack.us/congress/bills/113/s2125/
text.
---------------------------------------------------------------------------
    Added together, these issues raise the serious question of whether 
all customers are indeed moving to new services out of a genuine desire 
to change, or if at least some have been moved off the copper network 
due to service degradation, increased fees, or through no choice of 
their own at all. If a carrier is letting its copper network degrade or 
is telling customers they must move to fiber or wireless service in 
violation of its common carrier obligations, can we really call that a 
fair market choice on the part of the customer? And even in the cases 
where the customer has a meaningful choice to move to services using 
newer technologies, it is hard to accept the notion that customer 
actually wants the new service to have less reliability, more expensive 
power backup options, or less accurate 911 location data. When it comes 
to network reliability and public safety, these are not compromises we 
should be asking customers to make.
The Network's Fundamental Values
    This past January, the FCC, unanimously and with bipartisan 
support, recognized the fundamental network compact that has 
successfully guided communications policy for decades.\6\ That compact 
preserves certain enduring values that ensure our communications 
networks will remain the envy of the world as we move into IP-based 
services and new physical infrastructure.
---------------------------------------------------------------------------
    \6\ See Technology Transitions, GN Docket No. 13-5, AT&T Petition 
to Launch a Proceeding Concerning the TDM-to-IP Transition, GN Docket 
No. 12-353, Connect America Fund, WC Docket No. 10-90, Structure and 
Practices of the Video Relay Service Program, CG Docket No. 10-51, 
Telecommunications Relay Services and Speech-to-Speech Services for 
Individuals with Hearing and Speech Disabilities, CG Docket No. 03-123, 
Numbering Policies for Modern Communications, WC Docket No. 13-97, 
Order, Report and Order and Further Notice of Proposed Rulemaking, 
Report and Order, Order and Further Notice of Proposed Rulemaking, 
Proposal for Ongoing Data Initiative at  37-69 (rel. Jan. 31, 2014).
---------------------------------------------------------------------------
    The policies that guide the network transition should serve certain 
proven fundamental values and continue to protect consumers and 
encourage innovation. These fundamental values--public safety and 
national security, universal access, competition, and consumer 
protection--capture the basic principles that made our phone network a 
resounding success and can do the same for the next generation of 
communications technology.
Public Safety and National Security
    It is unquestioned that when someone calls 911, that person needs 
to know beyond a shadow of a doubt that she will be connected in one 
second. Everyday Americans rely on 911 daily to call for help in time 
of need. The FCC has already begun to look to the future of public 
safety requirements with the Next Generation 911 transition.\7\ This 
conversation, however, is also best situated in the broader context of 
the overall PSTN transition, both to evaluate the effect of 911 
proposals on other aspects of the network, and to anticipate the impact 
of non-911 proposals on our emergency communications systems.
---------------------------------------------------------------------------
    \7\ The FCC is also working with surer authority in this area 
compared to other aspects of the PSTN transition, based on the Next 
Generation 911 Act. See Middle Class Tax Relief and Job Creation Act of 
2012, Pub. L. No. 112-96 (2012), Title VI, Subtitle E.
---------------------------------------------------------------------------
    The network transition can bring with it new opportunities to 
expand emergency services. For example, the recent deployment of text-
to-911 capabilities in certain areas can help people seek emergency aid 
when placing a voice call is not feasible.\8\ However, we cannot simply 
assume that new technologies will continue to support the 911 features 
people rely on after the transition. In particular, as customers 
increasingly place 911 calls on wireless devices, policymakers should 
ensure carriers provide emergency responders with detailed and accurate 
location data. The California Chapter of the National Emergency Number 
Association has reported a recent significant decrease in the 
percentage of wireless 911 calls delivering more detailed Phase II 
location data to public safety answering points (PSAPs).\9\ If PSAPs do 
not receive adequate location data from carriers, they cannot find 
callers asking for help unless the caller can describe her own 
location, which may be difficult in certain emergency situations and 
places an extra burden on anyone who has a communication disability or 
additional language barrier. Elsewhere, AT&T's Wireless Home Phone 
product--marketed as a replacement for traditional landline phone 
service--tells customers in the fine print they will be required to 
give 911 operators their address, rather than have their location 
information transmitted to PSAPs automatically.\10\ But it doesn't have 
to be this way. The technology transitions offer opportunities to 
integrate multiple location technologies to give more specific location 
information and to find more efficient ways to notify emergency 
services when help is needed.\11\
---------------------------------------------------------------------------
    \8\ See What You Need to Know About Text-to-911, FCC (May 23, 
2014), https://www.fcc.gov/text-to-911.
    \9\ Letter from Danita L. Crombach, CALNENA, to Mignon Clyburn, 
Chairwoman, FCC (Aug. 12, 2013), http://www.calnena.org/communications/
To-FCC-08-12-2013/CALNENA-Letter-to-FCC-081213.pdf.
    \10\ AT&T Wireless Home Phone & Internet, http://www.att.com/shop/
wireless/devices/att/wireless-home-phone-and-internet-black.html (last 
visited June 2, 2014).
    \11\ See Henning Schulzrinne, Public Safety Communications in a 
Time of Transition, FCC (Apr. 17, 2014), http://transition.fcc.gov/
bureaus/pshs/docs/2014-PublicSafetyWorkshop.pdf.
---------------------------------------------------------------------------
    Public safety rules must ensure emergency services like 911 and 
geolocation technologies continue to help first responders offer 
emergency care, regardless of whether the network the customer uses is 
wireless or wireline, copper or fiber. The conversion to an all-IP 
network offers an opportunity to further facilitate emergency 
communications, and that opportunity must not be squandered. This also 
includes ensuring that the thousands of alarm systems and alarm system 
standards that rely on access to a ``telephone line'' are not disrupted 
by the transition, as we have seen them be disrupted by the attempted 
transition to Voice Link in Fire Island, New York.\12\
---------------------------------------------------------------------------
    \12\ See Jodie Griffin, The Phone Network Transition: Lessons from 
Fire Island, Public Knowledge (Mar. 7, 2014), http://
www.publicknowledge.org/news-blog/blogs/the-phone-network-transition-
lessons-from-fire-island.
---------------------------------------------------------------------------
    When the traditional architecture of the PSTN no longer exists, it 
is crucial that consumers are able to contact emergency services when 
they need it most. The moments in which the public relies upon 
emergency services like 911 are literally life-or-death, and it is 
crucial that policymakers implement rules that maintain the public 
safety components of the phone network. To its credit, the FCC has 
already begun the process of creating a framework for Next Generation 
911 services, but these issues must also be considered in the broader 
context of the overall shift of the PSTN to new technologies.
Network Reliability
    The basic mechanisms of the network must continue to function 
throughout and after the PSTN transition, even and especially in 
emergency situations. Above all else, Americans rely on their 
communications networks to work consistently and reliably. Above all 
else, a successful transition means that phone numbers still work and 
calls still go through with the same reliability they do today.
    One important part of making sure the phone network just continues 
to work on a day-to-day basis is ensuring the network's numbering 
system continues to function throughout and after the transition. 
Contrary to the beliefs of some, what defines the ``public switched 
network'' is not its underlying technology, but rather its use of phone 
numbers under the North American Numbering Plan.\13\ Fortunately, the 
FCC has recognized the importance of ensuring the continuing 
functionality and security of our numbering system, and has included a 
phone numbering testbed among its initiatives to more fully understand 
the transition. The FCC should use the lessons it learns in this 
testbed to determine the requirements for future Local Number 
Portability Administrators (LNPAs) and to ensure smooth transitions 
between administrators when they occur. The FCC could also use this 
opportunity to consider authorizing multiple LNPAs under Sec. 251(e), 
given the increasing ease of coordinating data between multiple 
databases.\14\
---------------------------------------------------------------------------
    \13\ 47 C.F.R. Sec. 20.3.
    \14\ 47 U.S.C. Sec. 251(e).
---------------------------------------------------------------------------
    The FCC currently exercises its authority over phone numbers to 
distribute phone numbers through the North American Numbering Plan 
(NANP). This raises the stark and critical question: who will be able 
to obtain numbers when all carriers have transitioned to IP-based 
technology? How will phone numbers work in a world with no TDM-based 
PSTN? These are questions that we absolutely must answer if the phone 
network as users now know it is to continue operating post-transition.
    After the transition, there will also be no ``copper safety net'' 
to offer the reliability that users have come to expect with basic 
phone service. Nevertheless, users' phone service--regardless of the 
protocols or materials it uses--must be able to withstand emergency 
situations. Even now we are still witnessing phone network technology 
``upgrades'' result in less redundancy and backup power in the system 
and increased reliance on the commercial power grid, creating a single 
point of failure when disaster strikes and users need to communicate 
most.
    The FCC's Wireline Competition Bureau has acknowledged that 
policymakers must be mindful of the network transition's impact on 
reliability and performance during power outages, even when the network 
is transitioning to a technology like fiber that it commonly considered 
to be an improvement over copper networks.\15\ Fiber offers the 
potential for faster data speeds and more network capacity, but, unlike 
the traditional copper network, is not self-powered and needs battery 
backup during power outages. Similarly, fixed wireless services require 
batteries, and the battery backup for AT&T's Wireless Home Phone 
product, for example, only offers 1.5 hours of talk time and 18 hours 
of standby time.\16\ As many communities that have experience 
hurricanes, tornadoes, and other natural disasters can attest, 
commercial power can be down for much longer than 18 hours, but users' 
need to have access to reliable communications remain unchanged.
---------------------------------------------------------------------------
    \15\ See Julie Veach, Chief, Wireline Competition Bureau, 
Protecting Consumers in the Transition from Copper Networks, FCC Blog 
(May 7, 2014), http://www.fcc.gov/blog/protecting-consumers-transition-
copper-networks.
    \16\ AT&T Wireless Home Phone & Internet, http://www.att.com/shop/
wireless/devices/att/wireless-home-phone-and-internet-black.html (last 
visited June 2, 2014).
---------------------------------------------------------------------------
    This is not to say that we must reject any technology that is not 
self-powered, but we must ensure the network continues to be as 
reliable as possible during power outages while minimizing the burden 
on consumers to make it so. And where a new technology differs from the 
network customers have come to rely on, we must make those differences 
clear to customers so they are not caught unawares after the power has 
already gone out. We can recognize consumers' justified expectations 
based on the traditional network they've known for decades and pursue 
policies to meet those needs without demanding that technological 
change be stopped in its tracks.
    As the PSTN continues its transition, the FCC and other 
policymakers must determine how they can ensure the post-transition 
PSTN continues to guarantee robust service for everyday uses and for 
emergency circumstances, when users need communications services most.
Universal Access
    Issues of public safety and network reliability also raise the 
question: what is the basic service we're aiming to give everyone 
access to? This transition is an opportunity to look forward: what new 
opportunities are made possible by new technology, and how does that 
impact what we determine to be the ``basic service'' that all should 
have access to? The Communications Act specifies that universal service 
encompasses ``an evolving level of telecommunications services'' and 
that the FCC should take into account ``advances in telecommunications 
and information technologies and services'' as it decides what 
universal service will look like for homes, schools, libraries, and 
health care providers across the country.\17\ Access to basic 
communications services reaps tremendous social and economic benefits 
to users, regardless of the material or technology used to transport 
the communications.
---------------------------------------------------------------------------
    \17\ 47 U.S.C. Sec. 254(c).
---------------------------------------------------------------------------
    We cannot simply sit back and assume that new technologies will 
continue to reach everyone at affordable prices on their own. Even now, 
we see indications that the transition could result in customers losing 
access to wireline service--or indeed, any service at all--and having 
to pay more for services that might not even offer all of the features 
and reliability of the existing network. For example, AT&T is currently 
seeking FCC approval of a wire center trial proposal that offers no 
plan for serving 4 percent of the population at all in one of the trial 
areas.\18\ AT&T's trial proposal also puts forward a plan to offer only 
a wireless product to a substantial percentage of the population, even 
though that wireless service currently cannot support features like 
medical alerts, alarm monitoring, credit card processing, 800 number 
service, dial-around calls, collect calls, elevator phone service, and 
E-911.\19\ Technological transitions in the network should be a step 
forward for everyone--we cannot allow everyday networks users to fall 
through the cracks in a process that is supposed to help people obtain 
better affordable access to communications platforms.
---------------------------------------------------------------------------
    \18\ AT&T Proposal for Wire Center Trials, Technology Transitions, 
GN Docket No. 13-5, AT&T Petition to Launch a Proceeding Concerning the 
TDM-to-IP Transition, GN Docket No. 12-353, at 14 (Feb. 27, 2014).
    \19\ AT&T Proposal for Wire Center Trials, Wire Center Trial 
Operating Plan, Technology Transitions, GN Docket No. 13-5, AT&T 
Petition to Launch a Proceeding Concerning the TDM-to-IP Transition, GN 
Docket No. 12-353, at 14-15 (Feb. 27, 2014).
---------------------------------------------------------------------------
    Policymakers should also consider the impact of the phone network 
transition on the availability and affordability of Internet access. 
For example, the Wireless Home Phone and Internet product that AT&T 
currently offers costs $80.00 for unlimited calling and just 10 GB of 
data (the package is $140.00 for voice and 30 GB of data).\20\ Under 
these plans, customers do not have the option of purchasing standalone 
broadband, so the least expensive package that includes broadband would 
be $80.00 for a mere 10 GB of usage. As a comparison, AT&T offers 
wireline Internet access over its DSL infrastructure for $14.95 for 150 
GB of data.
---------------------------------------------------------------------------
    \20\ AT&T Wireless Home Phone & Internet, http://www.att.com/shop/
wireless/devices/att/wireless-home-phone-and-internet-black.html (last 
visited June 2, 2014).
---------------------------------------------------------------------------
    One of the most important goals of communications policy in the 
United States is reaching universal service for all Americans across 
the country. The transition of the PSTN is an opportunity to expand and 
improve the communications service that all Americans receive, and our 
communications authorities must determine how they can continue to 
serve that goal as the traditional make-up of the PSTN changes.
Competition
    Interconnection and other competition policies lie at the heart of 
the development of a robust and competitive communications network. As 
we saw more than 100 years ago, without mandatory interconnection the 
phone network will slide inevitably toward monopoly as the largest 
carriers can gain anticompetitive advantages by withholding access to 
their customers from competitors. As carriers now move toward all-IP 
networks, policymakers must determine how they will ensure 
interconnection and competition among providers post-transition. These 
policies are critical to creating and maintaining a functioning 
interconnected network and a competitive market for communications 
services.
    For example, subscribers to different networks must not find 
themselves with dropped calls or degraded quality of service due to 
``peering disputes'' between carriers. If NBC and AT&T have a 
retransmission dispute and AT&T video subscribers temporarily lose NBC 
programs, it is annoying. But if Comcast and AT&T have a ``peering 
dispute'' and millions of AT&T wireless customers cannot reliably call 
Comcast landlines, it is a disaster. It is not enough to speculate that 
incentives will prevent such a thing from occurring. Policymakers must 
make sure such an event continues to be impossible after the 
transition.
    The phone network transition also calls into question the future of 
other rules and policies designed to encourage competition among 
communications providers. For example, local number portability (LNP) 
obligations have currently been extended to VoIP providers so that VoIP 
customers may keep their North American Numbering Plan (NANP) telephone 
number when changing providers. LNP rules encourage competition by 
allowing consumers to respond to providers' price and service changes 
without losing their phone numbers. But at this juncture the questions 
inevitably arises: when the traditional PSTN is gone, what will happen 
to the NANP? How can LNP rules extend to all phone service providers 
without revisiting the foundation of the NANP or classifying VoIP 
service?
    As the PSTN transitions to new physical facilities and IP 
protocols, it is critical to the competitive future of the market that 
the law and rules ensure carriers will continue to interconnect and 
rules will continue to promote competition in the marketplace to the 
benefit of consumers.
Consumer Protection
    When we talk about a system that everyday Americans count on to 
call 911, businesses, and loved ones, we cannot ignore users' need for 
consumer protections in the network. Competition is important, but it 
does not always guarantee consumer protection. From the privacy of 
phone calls to truth-in-billing to slamming and cramming, Americans 
rely on a safety net of rules that protect them when they communicate 
with one another. Throughout and after the PSTN transition, consumers 
must continue to be adequately protected--including effective recourse 
through the timely resolution of complaints.
    But on the Federal level, the Federal Communications Commission has 
only extended privacy rules to interconnected VoIP services by 
reasoning that those VoIP services send calls to and receive calls from 
the traditional phone network.\21\ Customers should be able to rely on 
the same protections they have always enjoyed when they switch to what 
by all appearances seems like a pure replacement for ``regular 
telephone'' service. After the DC Circuit's recent decision in Verizon 
v. FCC, we can be more confident that the FCC could use its section 706 
authority to continue consumer protections in the IP world, but 
Congress should continue to monitor movements in this space and ensure 
important consumer protection rules are actually carried over onto IP-
based networks.
---------------------------------------------------------------------------
    \21\ 47 U.S.C. Sec. 222.
---------------------------------------------------------------------------
    As the PSTN begins to transition to IP protocols and other upgraded 
technologies, policymakers must come to terms with how they will 
continue to protect consumers post-transition. All signs indicate that 
consumer protection rules will be equally, if not more, important post-
transition than they are today, and if anything consumer protection 
agencies will need flexibility to ensure that current and future 
consumer protection rules serve the same basic social needs as they do 
today.
The IP Transition and Rural Communities
    The new pattern of carriers eager to replace existing networks with 
new, untested technologies after natural disasters or when wireline 
networks have simply been allowed to degrade will have especially 
strong consequences for rural communities. Rural areas depend on 
wireline services more than most, especially because wireless 
deployment--even beyond its general limitations compared to wireline 
service--is not very strong in rural areas. And when a rural community 
loses a wireline service provider that offered DSL or other broadband 
service, there is rarely any competing service to turn to for continued 
Internet access. At the very least, the rural farmers who grow our food 
should know that they will be able to make phone calls and access the 
Internet when needed to check weather patterns, predict crop growth, 
and make business arrangements to harvest and transport crops. This 
also impacts more than just rural communities themselves--when farmers 
are arranging food shipments to your town, do you want them to lose 
service?
    The recent rural call completion problem also reminds us that rural 
communities may bear the brunt of unexpected complications tied to the 
IP transition, with potentially devastating consequences. As carriers 
switch to IP technology, it becomes possible for them to route calls 
through Least Cost Router systems, creating latency and sometimes 
trapping calls in perpetual loops so calls to or from rural areas do 
not go through. The Commission has rightly recognized that this issue 
speaks to our foundational expectation that the phone network will be 
reliable for all Americans, including those in rural areas, and has 
opened a proceeding to learn more about exactly why the rural call 
completion problem is getting worse.\22\ But even so, the FCC has 
received some shockingly inadequate carrier responses to rural call 
completion complaints. For example, one carrier told the FCC: ``We have 
contacted the [rural complainant] and have successfully resolved this 
matter by advising [her] that due to living in a rural area she will 
experience service issues.'' \23\ As discussed below, the DC Circuit's 
recent decision overturning parts of the FCC's net neutrality rules 
call into question how the FCC could effectively solve this problem 
absent classification under Title II.
---------------------------------------------------------------------------
    \22\ Rural Call Completion, Report and Order and Further Notice of 
Proposed Rulemaking, WC Docket No. 13-39 (rel. Nov. 8, 2013).
    \23\ FCC Enforcement Advisory, Rural Call Completion: Long Distance 
Providers Must Take Consumer Complaints About Rural Call Completion 
Problems Seriously (July 19, 2013), http://transition.fcc.gov/
Daily_Releases/Daily_Business/2013/db0719/DA-13-1605A1.pdf.
---------------------------------------------------------------------------
    This is why we need rules of the road: problems will inevitably 
arise as old systems fade away and new ones arise, but carriers have 
clearly shown that we cannot simply assume that companies will 
voluntarily defend the fundamental principles that have made our 
communications networks great. Meanwhile, 25 states have eliminated or 
reduced state commission authority over telecommunications services, 
and 12 states (all of which are in AT&T's incumbent local exchange 
carrier territory) have eliminated or reduced carrier of last resort 
obligations.\24\ Particularly where the states have effectively written 
themselves out of the conversation through deregulation, everyday 
Americans are relying on Federal authorities as their sole defender to 
protect the reliable, affordable communications access they count on.
---------------------------------------------------------------------------
    \24\ Sherry Lichtenberg, Ph.D., Telecommunications Deregulation: 
Updating the Scorecard for 2013 National Regulatory Research Institute, 
at 1, 20-22 (May 2013).
---------------------------------------------------------------------------
The IP Transition and the Elderly
    Perhaps the community that stands to be the most impacted by the IP 
transition is the elderly community. Older Americans have traditionally 
been later adopters of broadband and wireless technologies. Older 
Americans also opt for wireline voice services to a greater extent than 
other demographics, with 89.5 percent of households aged 65 and above 
living in homes with wireline voice service according to a National 
Health Interview Survey. In households in the 45 to 64 range, 74.2 
percent choose to maintain wireline voice service. Studies show that 
while more wireless options have increased, this community to prefers 
to have both options available.
    Maintaining a network that can support Life Alert technologies for 
health related emergencies, public safety alerts, and reliable access 
to 911 capability is critically important for this fast growing 
demographic. Additionally, although the phone provided by a cable 
company may generally look and function like a telephone, an older 
person might not realize the technology used to deliver their voice 
service is different and not held to the same regulatory protections 
that they may be dependent on.
    While carriers may cite regulation as a reason for the lack of 
broadband deployment to rural and high cost areas, it has more to do 
with the low population density that fails to deliver a sufficient 
return on investment. The lack of investment in broadband and wireless 
infrastructure in low population density areas raises serious concerns 
for the future quality of services available to the elderly community 
over an IP-based network. The relief from ``regulatory burdens'' 
described by AT&T its FCC proposal could have serious consequences for 
communities that depend on the reliability ensured by wireline 
regulation like 911 functionality, equal access requirements, and COLR 
obligations.
    Finally, many older Americans also lived on a fixed income, and 
could be subjected to paying for expensive bundles on upgraded networks 
in part due to the lack of maintenance or availability of traditional 
copper based networks. These bundles may not qualify for crucial 
Lifeline subsidies that provide older and low-income Americans with 
critical access to phone service.
Moving Forward in the IP Transition
    We are now in the midst of the network transition, and the FCC has 
taken action to gather information and begin creating a framework in 
which to address the policy questions raised by these technological 
changes. As policymakers continue working on this issue, the near-term 
focus should be on collecting data about new technologies, clarifying 
what standards carriers must meet to replace existing networks with new 
technologies, and protecting network users throughout and after the 
transition.
Clarifying the Sec. 214(a) Standard
    Before a carrier can discontinue, reduce, or impair service to a 
community, it must receive authorization from the FCC certifying that 
the change will not adversely affect the present or future public 
interest.\25\ This system was not designed with the IP transition in 
mind, and it is simply not suited to situations where a carrier wishes 
to replace its existing service, still high in demand, with another 
service. The FCC must therefore take steps now make clear what specific 
changes would ``impair'' service under Sec. 214(a) in the context of 
the network transition, ensuring that its analysis continues to serve 
the values identified in the unanimous Commission Order beginning the 
trials process.
---------------------------------------------------------------------------
    \25\ 47 U.S.C. Sec. 214(a).
---------------------------------------------------------------------------
    There are three areas in particular that need guidance. First, what 
policies should the Commission adopt as applicable to any new service? 
These questions would be best handled in the FCC's existing open 
proceedings addressing these issues.\26\ Second, what technical 
standards for covered services must the new service meet? For example, 
what consistent voice quality standards should new services meet (as 
measured in quantifiable--not merely qualitative--measurements)? This 
should be a pure question of engineering, supported by technical trials 
and other relevant engineering data, industry standards and best 
practices, and other technical sources.
---------------------------------------------------------------------------
    \26\ See Letter from Angie Kronenberg and Karen Reidy, COMPTEL, to 
Marlene H. Dortch, Secretary, FCC (Apr. 2, 2014), available at http://
apps.fcc.gov/ecfs/comment/view?id=6017610666.
---------------------------------------------------------------------------
    Finally, what services must be covered? This is a mixed question of 
policy and engineering. For example, the FCC has long required 
providers to permit any network attachment that does not harm the 
network.\27\ Whether the loss of this capability would constitute an 
impairment or reduction in service is a question of policy. But if the 
FCC determines that the new service must permit network attachments, 
then the question of how to do so becomes an engineering question.
---------------------------------------------------------------------------
    \27\ See 47 C.F.R. Sec. 68 et seq.
---------------------------------------------------------------------------
    More specifically, the FCC should also give guidance for when 
natural disasters damage networks and carriers wish to replace the 
network with new technologies instead of rebuilding the copper network. 
Communities and their residents have always had to deal with temporary 
network outages after natural disasters, but now that we are in the 
midst of the phone network transition, we are seeing instances where 
carriers want to respond to damaged networks by replacing the existing 
networks with new, untested services, rather than repairing or 
rebuilding the infrastructure the community has relied on for decades. 
Like the rest of the phone network transition, this can be an 
opportunity for better, newer service for the community, but 
unfortunately we have already seen how it can also force customers--who 
are already trying to rebuild their lives after a devastating natural 
disaster--to accept less reliable, more restricted services than what 
they had before.
Collecting Data to Inform Policy Decisions
    The FCC is currently in the process of arranging and approving a 
series of technical experiments designed to better understand the 
impacts of new network technologies on consumers. Policymakers should 
use these trials to better understand the transition's technical 
challenges and opportunities and inform policy decisions going forward.
    The trials are an opportunity to collect technical data about new 
network technologies under a variety of parameters.\28\ This data can 
be used to inform policies that ensure we continue to protect the 
fundamental values of the network. Ideally, the FCC will be able to use 
the information collected in the trials to create a detailed 
``checklist'' of technical standards that would guide companies seeking 
permission under Sec. 214(a) to replace their existing networks with 
new technologies.
---------------------------------------------------------------------------
    \28\ See A Brief Assessment of Engineering Issues Related to Trial 
Testing for IP Transition, CTC Technology & Energy (Jan. 13, 2014), 
http://www.publicknowledge.org/files/CTC-PK%20PSTN
%20Report.pdf.
---------------------------------------------------------------------------
    It is also worth confirming that the trials, while a useful tool 
for policymakers, cannot become a vehicle for the transition itself. A 
trial is not a product launch. The trials must be limited, transparent, 
carefully controlled experiments, with definite start and end points 
and definite metrics by which to collect data. Any attempt by a carrier 
to co-opt a trial into a permanent deployment plan should be firmly 
rejected to protect customers and avoid distracting from the trials 
process.
Continuing to Protect Consumers
    We cannot let customers be left behind while we are in the midst of 
these policy debates. We have already seen customers across the country 
report that they have experienced dropped calls and degraded service 
quality, and that their carriers responded to their requests for help 
by aggressively upselling them instead of maintaining the network (as 
they are legally required to do).\29\
---------------------------------------------------------------------------
    \29\ See Letter from Jodie Griffin, Senior Staff Attorney, Public 
Knowledge, et al., to Julie A. Veach, Chief, Wireline Competition 
Bureau, FCC (May 12, 2014), available at http://www
.publicknowledge.org/assets/uploads/blog/14.05.12_Copper_Letter.pdf.
---------------------------------------------------------------------------
    This state of affairs, as reported by consumers across the nation, 
is unacceptable. Congress and the FCC should both look into the 
industry practices that led to these complaints, and where appropriate 
the FCC could also begin enforcement proceedings or information 
requests. Failure to take any action will only undermine the public's 
confidence in the network that we have relied on for decades and puts 
network users across the country at risk of losing access to basic 
communications service.
Authority to Preserve the Network Compact
    As we move forward with the network transition, it is imperative 
that the FCC continues to have authority to implement policies that 
serve the network's enduring values.
    The Court of Appeals for the D.C. Circuit's recent decision 
overturning the FCC's no-blocking and nondiscrimination Open Internet 
rules called into question the FCC's ability to continue applying 
certain fundamental policies to the phone network as it transitions to 
IP-based technology.\30\ Essentially, the DC Circuit ruled that when 
the FCC has put something in the Title I ``information service'' box, 
it cannot then treat that service like the phone system. This can 
become a serious problem when the service at issue is the phone system. 
Thus far, the FCC has classified Internet access service as an 
information service, but has not classified interconnected VoIP as 
either an information service or a telecommunications service.
---------------------------------------------------------------------------
    \30\ Verizon v. FCC, Case No. 11-1355 (D.C. Cir. Jan. 14, 2014).
---------------------------------------------------------------------------
    To the extent that parts of the phone network's post-transition 
infrastructure fall under Title I, the FCC now has expanded authority 
to implement consumer protection rules like extending slamming and 
cramming rules to IP-based services. However, the DC Circuit's decision 
casts doubt on the FCC's ability to require VoIP providers to complete 
all phone calls, prohibit VoIP providers from blocking calls, and 
implement ``carrier of last resort'' obligations for VoIP service.
    In 2012, the FCC's declaratory ruling addressing the problem of 
rural call completion was grounded in Title II common carrier authority 
and the duty to serve everyone.\31\ But, as the DC Circuit explained in 
the net neutrality context, this is precisely the type of action the 
FCC cannot take for non-common carrier services. So, post-transition, 
absent reclassification, the FCC would be unable to ensure that all 
calls go through when someone dials a 10-digit phone number. The FCC 
could--as it can with net neutrality--require companies to disclose if 
they are blocking calls or otherwise ``managing'' traffic in a way that 
degrades rural traffic. But, as too many in rural America can already 
tell you, this has not been effective at curbing the problem.
---------------------------------------------------------------------------
    \31\ Develop an Unified Intercarrier Compensation Regime, CC Docket 
No. 01-92, Establishing Just and Reasonable Rates for Local Exchange 
Carriers, WC Docket No. 07-135, Declaratory Ruling (rel. Feb. 6, 2012), 
available at https://apps.fcc.gov/edocs_public/attachmatch/DA-12-
154A1.pdf.
---------------------------------------------------------------------------
    Similarly the FCC's inability to apply common carriage-like rules 
to IP-based services could mean the FCC will be unable to implement 
``carrier of last resort'' (COLR) rules after the phone network has 
transitioned to IP.\32\ After all, the obligation to serve the public 
indiscriminately is at the core of common carriage, so without 
authority under Title II the FCC could be unable to ensure that 
everyone in the country has at least one option for standalone basic 
communications service. Particularly as states deregulate their own 
COLR rules, the FCC's continued role is critical to achieving universal 
service throughout and after the transition.
---------------------------------------------------------------------------
    \32\ Incidentally, carriers deploying new networks like fiber-based 
infrastructure may be willing to accept Title II classification when 
they wish to invoke their common carrier privileges to install fiber 
over private property or use public rights-of-way. Bruce Kushnick, It's 
All Interconnected: Oversight and Action is Required to Protect Verizon 
New York Telephone Customers and Expand Broadband Services, Public 
Utility Law Project of New York, Inc. (May 13, 2014), http://
newnetworks.com/wp-content/uploads/PublicNN3.pdf.
---------------------------------------------------------------------------
    To the extent policymakers ever had the luxury of avoiding the 
question of the FCC's authority over IP-based services, the phone 
network transition and the recent net neutrality decision in the DC 
Circuit make clear that the time for putting off this decision has 
ended. The underlying technology of the network may be changing, but 
the fundamental values of the network remain the same, and the FCC must 
continue to have the authority it needs to protect users and honor the 
network compact.
Conclusion
    The transition of the phone network presents new opportunities and 
new challenges for policymakers seeking to ensure new networks 
constitute a true step forward, not a step backward, for everyday 
Americans. The stakes are high. The choices policymakers make now will 
impact how the public conducts business, communicates with loved ones, 
and reaches emergency services. Public Knowledge urges policymakers to 
follow the basic values that have informed our communications networks 
since the founding of our country to ensure we can all continue to 
enjoy a communications network we can count on.

    Senator Pryor. Thank you.
    Ms. Honorable?

         STATEMENT OF COLETTE D. HONORABLE, PRESIDENT,

   NATIONAL ASSOCIATION OF REGULATORY UTILITY COMMISSIONERS 
                            (NARUC)

    Ms. Honorable. Good morning, Chairman Pryor, Ranking Member 
Wicker, and the members of the Subcommittee. Thank you for the 
opportunity to testify today on the IP transition and its 
impact on public safety and network resiliency.
    My name is Colette Honorable. I have the honor of serving 
as Chairman of the Arkansas Public Service Commission, and I am 
especially honored to appear here before my senior Senator, 
whom I think is an outstanding public servant. I am also 
testifying in my role as President of the National Association 
of Regulatory Utility Commissioners.
    I applaud the Subcommittee for holding this hearing, which 
is focused on the proper question, which is which public policy 
value should be preserved? What consumers care about is that 
their telecommunications work and are reliable, regardless of 
the technology used to provide them.
    As we transition from traditional circuit-switched 
technologies to an IP- and wireless-based system, Federal and 
State policymakers must work together to ensure that emergency 
911 service and network resilience do not suffer. Public safety 
is, indeed, a core value that should not and cannot be 
compromised.
    As Senator Pryor and Ranking Member Wicker know all too 
well, the recent tornados in Arkansas and Mississippi were 
another unavoidable reminder of how important these 
collaborative efforts are to ensure the resilience of our 
critical infrastructure and the safety of our citizenry. The 
April EF-4 tornado not only took the lives of many, but damaged 
hundreds of homes in one county alone.
    I am very pleased with the recovery and restoration 
efforts, which included the immediate response of our Governor, 
Mike Beebe, the Arkansas Department of Emergency Management, 
first responders and emergency personnel, and the utility and 
telecommunication sectors.
    Two large cell towers were destroyed, interrupting 
communications throughout the affected area. However, the 
carriers responded quickly, bringing in mobile towers that 
helped to return some level of service. While the situation is 
devastating, it could have been worse.
    Superstorm Sandy demonstrated the frailties of our utility 
infrastructure, knocking out power for days and weeks, cutting 
off telecommunications networks. While new IP- and wireless-
based systems can be more efficient than traditional landline 
services, they do not have the same back-up power capabilities 
as the older networks. Circuit-switched technologies are 
supported by robust, independent power sources and continue to 
function during prolonged outages.
    Many of the new IP systems rely on a back-up power in the 
consumer's home. These back-up units are, indeed, the 
responsibility of the consumer, and therefore, it is important 
that consumers are educated and are aware about these issues 
and how they can prolong the life of their infrastructure at 
home. As more consumers switch to IP-based systems, we must 
ensure that the technologies provide the same kind of support 
or that consumers are aware that they may not.
    In conclusion, what is important are the values we apply to 
the communications network, not the technology used to deliver 
it. FCC Chairman Wheeler espoused the four values of universal 
accessibility, reliable interconnection, consumer protection, 
public safety and security. NARUC agrees.
    While technology may change, the expectations of consumers 
do not. Consumers expect the same quality of service, 
reliability, and access to emergency service to which they have 
grown accustomed.
    When hurricanes, tornados, or other natural disasters 
unleash their destructive force, they don't discriminate 
between a copper, fiber, or wireless networks. It is precisely 
for this reason that we, as policymakers, should not 
discriminate in applying our values. These values must be 
applied consistently and in a technology-neutral manner, 
especially when it relates to public safety.
    Thank you for this opportunity, and I look forward to your 
questions.
    [The prepared statement of Ms. Honorable follows:]

        Prepared Statement of Colette D. Honorable, President, 
    National Association of Regulatory Utility Commissioners (NARUC)
    Chairman Pryor, Ranking Member Wicker, and Members of the 
Subcommittee, thank you for the opportunity to testify today on the IP 
Transition and its impact on Public Safety and network resiliency. 
Since 2007, I have been a Commissioner with the Arkansas Public Service 
Commission. Governor Mike Beebe designated me the Commission Chair in 
2011. I am also President of the National Association of Regulatory 
Utility Commissioners (NARUC). NARUC is--like Congress--a bipartisan 
organization. Our members include public utility commissions in all of 
your States, the District of Columbia and U.S. territories with 
jurisdiction over telecommunications, electricity, natural gas, water 
and other utilities. NARUC member commissioners are the in-State 
experts on critical infrastructure in the utility sector and we are 
very familiar with network resiliency and service restoration issues.
    I applaud the Subcommittee for holding this hearing because it is 
focused on the correct question--which public policy values should be 
preserved--rather than just on the particular technologies being used 
to provide services today. NARUC has consistently supported 
technological innovations that promote more resilient networks and 
provide better service. But preserving public safety and network 
reliability, along with other values that customers expect--such as 
universal access, competition (interconnection), and consumer 
protection--are also important concerns in any technology transition, 
including this one.
    Federal and State policymakers must work together to ensure that 
emergency 911 services and network resiliency do not suffer as 
consumers migrate to new technologies. Advances in technology often 
call for new regulatory policies for both new and existing services.
    As FCC Chairman Wheeler noted in a recent posting:

        ``When the original 911 rules for wireless providers were first 
        adopted, they were built on the assumption that the primary 
        place consumers would use their wireless phones would be 
        outside. But today, the vast majority of wireless calls are 
        made from indoors, including 911 calls made from wireless 
        phones. Commercial location-based services are raising 
        consumers' expectations--if a smartphone app can locate them 
        within seconds, why can't a 911 call center?'' \1\
---------------------------------------------------------------------------
    \1\ See, Official FCC Blog: ``Access and Public Safety: Enduring 
Elements of the Public Interest,'' By Tom Wheeler, FCC Chairman, 
January 30, 20144, available online at: http://www.fcc.gov/blog/access-
and-public-safety-enduring-elements-public-interest.

    Why indeed?
    To the Chairman's credit, the FCC initiated a proceeding to correct 
this deficit earlier this year in February. It was an initiative NARUC 
specifically endorsed by resolution.\2\
---------------------------------------------------------------------------
    \2\ See, e.g., NARUC's May 14, 2014 Comments on Wireless E9-1-1 
location accuracy requirements, at: http://www.naruc.org/Filings/
14%200512%20NARUC%20Comments%20on%20911%
20location%20accuracy.pdf.
---------------------------------------------------------------------------
    Some of these public-interest values present challenges that 
require the FCC to act--while others require close State-Federal 
collaborative efforts. The recent tornado in my home State of Arkansas 
was another unavoidable reminder of how important those collaborative 
efforts are to ensuring the resiliency of our critical infrastructure 
and the safety of our citizens.
    An EF4 tornado hit Arkansas in April of this year. In one county 
alone, it destroyed 328 homes; significantly damaged 111 more, and 
impacted hundreds of others. A new intermediate school which had been 
rebuilt after a 2011 tornado was once again demolished. It was one of 
the worst storms during my tenure at the Arkansas Commission and grim 
evidence that no matter how well utilities and others plan and prepare, 
the awesome force of nature can and will find vulnerabilities in our 
critical communications and power infrastructures. It was another 
reminder of how important it is for policymakers to focus on the right 
questions.
    As we transition to newer technologies, it is crucial for Congress 
and State and Federal regulators to continue to focus on the right 
issues and recognize that our collective focus must be the consumer, 
especially with regard to public safety.
    IP-based technologies can be more efficient than the technologies 
they are replacing. If properly implemented, they also can be more 
resilient than the old networks in certain ways. Networks that shift to 
IP-technology are designed to be highly robust to random failures. 
However, such networks have new vulnerabilities that the earlier 
technologies did not. For example, so-called ``circuit-switch'' 
services are self-powering. The electricity that carries your voice on 
such system also provides power. IP-based services rely upon external 
power sources. Therefore if your landline telephone company still 
provides circuit-switched service, your phone will continue to work 
even through an electricity outage. If, however, the power goes out in 
your home and you have an IP-based phone system, you will only retain 
phone service--even if the rest of the network is operational--as long 
as your backup batteries last.\3\ During prolonged outages, IP-based 
residential customers will almost certainly lose phone service. 
Wireless phones that require external power to recharge once their 
batteries drain have the same problem.
---------------------------------------------------------------------------
    \3\ See, e.g. Giorgianni, Anthony, ``Verizon to eliminate free 
backup batteries for new residential phone customers: Decision by 
telecom giant could prevent 911 access during blackouts'' Consumer 
Reports (December 12, 2013), online at: http://www.consumerreports.org/
cro/news/
2013/12/verizon-to-eliminate-free-backup-batteries-for-new-residential-
phone-customers/index
.htm. (``The company said that as of early as December, new FiOS 
customers who want a backup battery will have to pay a one-time charge 
of $29.99, buy it elsewhere, or do without. During a blackout, FiOS 
customers without a battery, household generator, or other type of 
backup power system will lose their landline voice service, including 
access to emergency 911.'') See also, U-verse Voice battery backup 
specifications, ``Upon installation of your AT&T U-verse Voice service, 
you are provided with a backup battery (or batteries) to help maintain 
your digital home phone service in the event of a short disruption of 
electrical power to your home.'' at: http://www.att.com/esupport/
article.jsp?sid=KB409162&cv=814#fbid=esUgRWuZWBu.
---------------------------------------------------------------------------
    This is one example where regulatory oversight remains necessary 
regardless of changes over time in the technology used to provide a 
service. It is why NARUC has for years consistently urged Congress and 
Federal regulators to take a technology-neutral approach to 
regulation.\4\ The consumer cares if the phone service works during 
power outages and emergencies. When she calls 911, she wants that call 
to go to the right call center--she wants the call center to know where 
she is. The consumer does not distinguish whether the network provides 
the service using IP-protocol based or circuit-switched technology. 
Though sometimes a technology can engender a new problem,\5\ the basic 
reasons why public service commissions and agencies like the FCC were 
created remain the same.
---------------------------------------------------------------------------
    \4\ NARUC Legislative Task Force Report on Federalism and Telecom 
(July 2005). See also, NARUC's February 2003, NARUC passed Resolution 
Relating To Voice Over The Internet Telecommunications, available 
online at: http://www.naruc.org/Resolutions/voice_over.pdf, that notes 
``a significant portion of the Nation's total voice traffic could be 
transported on IP networks within a few years'' and urged the FCC to 
``confirm its tentative decision that certain phone-to-phone calls over 
IP networks are telecommunications services.'' In November 2003, NARUC 
passed a Resolution on ``Information Services'', at http://
www.naruc.org/Resolutions/info_services.pdf, cautioning the FCC to 
consider the negative implications associated with a finding that IP-
based services are subject to Title I jurisdiction, including the (i) 
uncertainty and reduced capital investment while the FCC's authority 
under Title I is tested; (ii) loss of consumer protections applicable 
to telecommunications services under Title II; (iii) disruption of 
traditional balance between Federal and State jurisdictional cost 
separations; (iv) increased risk to public safety . . . content; (vi) 
loss of State and local authority over emergency dialing services . . 
.'' Those warnings remain valid today. See also, NARUC's 2008 
Resolution Regarding the Interconnection of New Voice 
Telecommunications Services Networks, online at: http://www.naruc.org/
Resolutions/TC%20Interconnection.pdf. (``NARUC applauds the numerous 
advances in technology . . . to enable the efficient transmission of 
voice telecommunications traffic and the continued successes in 
developing innovative means to deliver voice telecommunications 
services . . . it is in the public interest for telecommunications 
carriers to interconnect their networks to exchange traffic in a 
technologically neutral manner, as provided for under Sections 251 and 
252.'') See also, NARUC's February 2012 Resolution on Mandatory 
Reporting of Service Outages by Interconnected Voice over Internet 
Protocol Service Providers, asking the FCC to, inter alia, extend the 
mandatory service outage reporting requirements in 47 C.F.R. Part 4 to 
interconnected VoIP service providers.
    \5\ Some argue some technology specific rules may be needed to 
address the reduced resiliency of wireless and fiber networks. But 
there is no question that competing services should face similar rules. 
Both rely more on commercial power both at the network level and at the 
customer premise. The battery backup system installed with FiOS service 
is the responsibility of the consumer, after one year. There is a 
similar question, given the increasing number of wireless-only 
households, of backup power to cell towers. NARUC has raised concerns 
about the problem and had a panel on the interdependencies between the 
telecom and energy sectors at our conference last November.
---------------------------------------------------------------------------
    And there are only two.
    First, we regulate where competition \6\ is not vigorous enough to 
adequately protect consumers. Where competition is sufficient to 
protect consumers and ensure market choice and innovation, then there 
is a reduced need for regulatory oversight.
---------------------------------------------------------------------------
    \6\ Experts will always argue about how to define a competitive 
marketplace or what level of competition is needed to eliminate market 
power concerns but that is a different question and debate. It is also 
a broader question than the one facing policymakers under the current 
law. Here the question is, does the 1996 Act allow the FCC to treat 
functionally equivalent services differently under an ad hoc (FCC-
created) regulatory regime. And if it does, how on earth does it make 
sense for them to do so. Shouldn't competitors be subject to the same 
set of rules?
---------------------------------------------------------------------------
    Second, we intervene to impose public interest obligations. 
Regardless of the level of competition, some oversight is always 
necessary to provide things the market will not. This includes 
protecting consumers from fraudulent actors and poor service quality, 
imposing requirements to facilitate or enhanced competitive forces, 
e.g., (1) requiring local number portability \7\ and (2) facilitating 
interconnection in markets with competing carriers with widely 
divergent market power, assuring disabled access, emergency calling 
services and universal service, and, of course, today's topic--assuring 
a proper level of network reliability, as well as adequate plans that 
provide robust service restoration after disasters.
---------------------------------------------------------------------------
    \7\ Number portability, which unquestionably facilitates 
competition, had to be forced on the wireless industry at a time when 
many considered that sector to be the poster child for a competitive 
market.
---------------------------------------------------------------------------
    With regard to the recent storm in Arkansas, I remain very pleased 
with the recovery and restoration efforts in Vilonia and Mayflower. 
This included the immediate response of Governor Mike Beebe and the 
Arkansas Department of Emergency Management (ADEM), first responders 
and emergency personnel, along with the prompt response of our 
telephone companies. As an example of how important connectivity is 
during an emergency, I received a call at home near midnight after the 
storm from our Attorney General who was on the ground assisting with 
rescue efforts in Vilonia. He was concerned about a significant gas 
leak and requested expedited gas-service disconnection in the 
neighborhood at issue. I contacted Centerpoint's Regional Vice 
President and head of Arkansas operations who responded immediately, 
terminating service to the subdivision where a Level B leak was 
subsequently discovered. This was but one example of the excellent 
coordination among all involved in the emergency response effort that 
night.
    As I touched on earlier, the recent storm outages have raised 
questions about the resilience of these new networks, as both wireless 
and fiber-based IP services are much more reliant on commercial power 
from end-to-end.
    While regarded by some as old-fashioned, conventional wireline 
circuit-switched packetized technologies are supported by robust 
independent back-up power supply resources (e.g., central office 
standby diesel generators and battery banks), and continue to function 
during prolonged commercial power outages. As more consumers switch 
from wireline to IP or wireless service, we must assure that these 
technologies continue to provide back-up power during outages to 
maintain emergency communications.
    This raises the real question of whether consumers signing up for 
fiber-based services are fully aware of the trade-offs inherent in 
shifting to a different protocol. Do they know of the backup power 
limitations of the network and at their premises? Are they aware of the 
additional burdens that making this change places upon them to assure 
their own safety?
    For example, Verizon policy states that the battery backup system 
installed with FiOS service is the responsibility of the consumer, 
after a one-year warranty.\8\ The condition of the battery can 
dramatically impact the length of backup power a customer will 
experience in a power outage. While future back-up units may use simple 
batteries available at the local grocery store or pharmacy, current 
models require specialized batteries that are not readily available and 
can be difficult to change. Are most customers who switch aware of and 
educated about these issues? For many, I suspect the answer is no.
---------------------------------------------------------------------------
    \8\ See, e.g., Verizon battery backup policy,'' available online 
at: http://www.verizon.com/Support/Residential/tv/fiostv/
general+support/new+to+fios+tv/questionsone/121498.htm#.
---------------------------------------------------------------------------
    On the wireless side, severe weather can also wreak havoc. As we 
learned after Superstorm Sandy, there can be problems with backup power 
at cell towers. NARUC voiced concerns about this by adopting a 
resolution in July 2013 urging State and Federal regulators ``to engage 
in meaningful dialogue with industry decision makers to develop 
policies and procedures that ensure telecommunications are maintained 
during power outages regardless of the technology and the 
communications protocols used to provide the services.'' \9\
---------------------------------------------------------------------------
    \9\ NARUC Resolution Calling for National and State Collaboration 
to Ensure Reliable Wireline and Wireless Communications during Power 
Outages, adopted July 24, 2013. Available at: http://www.naruc.org/
Resolutions/Resolution%20Calling%20for%20National%20and%20State%
20Collaboration%20to%20Ensure%20Reliable%20Wireline%20and%20Wireless%20C
ommunicati
ons%20during%20Power%20Outages.pdf
---------------------------------------------------------------------------
    However, the issue in Arkansas after our recent storm was not a 
lack of backup power at the cell tower but the complete destruction of 
some of the towers themselves. There really is no protective measure 
that can guarantee this type of situation will not occur again. The 
storm in April destroyed two large cell towers--a 300-ft tower in 
Vilonia and a 250-ft tower in Mayflower. Multiple wireless providers 
utilized both towers so coverage to the area was lost across almost all 
providers. Fortunately, the carriers know this kind of damage is a 
possibility and, because the equipment shelters were spared, wireless 
providers brought in temporary mobile tower units the night of the 
storm and restored some service, as well as additional equipment in the 
days after the storm.
    I commend the carriers for their quick response. While the shorter 
mobile towers lacked the same coverage and capacity, it was nonetheless 
a big step forward. Verizon provided mobile towers, Wi-Fi and charging 
stations at the storm command center within hours of the tornado. AT&T 
also deployed several mobile charging stations so those in the impacted 
community could charge their devices and stay connected to friends and 
loved ones. They waived voice, data and text overage charges for a 
certain time period as well as set up a hydration station to provide 
water, snacks and shelter for volunteers. Windstream's service 
territory was also impacted. The company brought in a temporary trailer 
to provide power for charging cell phones, etc and it had 10 MB 
broadband services with computers available to members of the 
community. They also provided volunteers from other markets to assist 
in the repair and clean-up effort.
    For any policymaker to decide whether any intervention or oversight 
of a carrier or carriers is necessary, access to information is 
crucial.
    For emergency systems, policymakers at both the Federal and State 
level need access to outage reporting data submitted by all competing 
providers, including interconnected VoIP carriers. Without information 
about the root causes of outages, whether they are on the rise or the 
wane, we have no way of determining if any action is warranted. 
Literally, lives hinge on such decisions and, by extension, on access 
to such data.
    In February 2012 the FCC adopted a Report and Order addressing 
outage reporting requirements by interconnected VoIP providers.\10\ 
NARUC urged the FCC to act on this issue and in a resolution adopted 
earlier that month called for the agency to: (1) Extend the mandatory 
service outage reporting requirements in 47 C.F.R. Part 4 to 
interconnected VoIP service providers; (2) Require interconnected VoIP 
service providers to report service outage information comparable to 
that required from other communications service providers, and on a 
detail level and timeliness that will provide adequate network status 
information in support of State, county, and local emergency response 
efforts; (3) Expand the criteria in 47 C.F.R. Part 4 that defines a 
significant service outage to specifically include VoIP service 
problems affecting public access to 9-1-1, emergency service 
communications, utilities, and other telecommunications service 
providers; and (4) Provide State commissions with the opportunity to 
have direct and immediate access to the FCC's outage reporting database 
and to all outage reports filed by interconnected VoIP service 
providers.\11\
---------------------------------------------------------------------------
    \10\ FCC Report and Order on The Proposed Extension of Part 4 of 
the Commission's Rules Regarding Outage Reporting To Interconnected 
Voice Over Internet Protocol Service Providers and Broadband Internet 
Service Providers; PS Docket No. 11-82, Adopted: February 15, 2012 
Released: February 21, 2012. Available at: http://www.google.com/
url?sa=t&rct=j&q=&esrc=
s&source=web&cd=1&ved=0CC0QFjAA&url=http%3A%2F%2Ftransition.fcc.gov%2FDa
ily_Relea
ses%2FDaily_Business%2F2012%2Fdb0221%2FFCC-12-
22A1.pdf&ei=C02GU8eQOemhsATdm4
HYCQ&usg=AFQjCNFk05jz3-
notvngKPR21ZABHWcvSA&bvm=bv.67720277,d.cWc&cad=rja.
    \11\ NARUC Resolution on Mandatory Reporting of Service Outages by 
Interconnected Voice over Internet Protocol Service Providers, adopted 
February 8, 2012, available online at: http://www.naruc.org/
Resolutions/Resolution%20on%20VoIP%20Outage%20Reporting.pdf
---------------------------------------------------------------------------
    Carriers almost unanimously opposed the FCC's extension of 
mandatory outage reporting requirements to VoIP technologies. While it 
is easy to understand why a carrier might not want such data available 
to policymakers, it is not prudent for those with the responsibility to 
assure public safety and network resiliency to eschew such information.
    Carriers posited a series of unpersuasive ``arguments'' ranging 
from outage reporting is a waste of time to the specious argument that 
the FCC lacks the authority to impose such a mandate on interconnected 
VoIP providers just because they use IP protocol.\12\ Similar arguments 
proliferate before NARUC member commissions. Carriers have denied some 
states access to outage data claiming State commissions do not have 
authority to require reporting solely because of the technology they 
use to carry their traffic. This is disappointing and contrary to the 
public interest.
---------------------------------------------------------------------------
    \12\ FCC Report and Order on The Proposed Extension of Part 4 of 
the Commission's Rules Regarding Outage Reporting To Interconnected 
Voice Over Internet Protocol Service Providers and Broadband Internet 
Service Providers; PS Docket No. 11-82, Adopted: February 15, 2012 
Released: February 21, 2012. Available at: http://www.google.com/
url?sa=t&rct=j&q=&esrc
=s&source=web&cd=1&ved=0CC0QFjAA&url=http%3A%2F%2Ftransition.fcc.gov%2FD
aily_Rel
eases%2FDaily_Business%2F2012%2Fdb0221%2FFCC-12-
22A1.pdf&ei=C02GU8eQOemhsATd
m4HYCQ&usg=AFQjCNFk05jz3-
notvngKPR21ZABHWcvSA&bvm=bv.67720277,d.cWc&cad=rja.
---------------------------------------------------------------------------
    In my state, under our State Emergency Plan, the PSC is responsible 
for coordinating between the jurisdictional utilities and other State 
agencies, principally the Arkansas Department of Emergency Management 
(ADEM). During emergencies, we provide a greater emphasis on the 
restoration of electric and natural gas service. As a result of State 
deregulation and existing jurisdictional ambiguity, because of the 
FCC's refusal to provide any regulatory classification of VoIP 
services, we play less of a role in telecom restoration.
    It is imperative that we assist in the coordination between the 
electric and telecommunications utilities in the event of an emergency 
to understand the timeframes for the restoration of electric facilities 
and communications facilities, and aid in rescue and recovery efforts. 
We also assist by providing reports to ADEM on the status of any 
outages and restoration of electric, natural gas, and to a lesser 
extent telecommunications service.
    We were pleased when the FCC extended its outage reporting 
requirements to interconnected VoIP providers as NARUC recommended.\13\ 
However, it failed to address our request to provide State commissions 
with direct and immediate access to the FCC's outage database and to 
all outage reports filed by interconnected VoIP providers.\14\ This is 
a problem. states play a key role in coordination of outage 
restoration. We are the ``boots on the ground'' when disasters strike. 
Limited access to this information is counterproductive to our joint 
goal of quick and timely service restoration.
---------------------------------------------------------------------------
    \13\ February 8, 2012 Letter from James Bradford Ramsay, to FCC 
Chairman Genachowski and Commissioners McDowell and Clyburn, filed In 
the Matter of the Proposed Extension of Part 4 of the Commission's 
Rules Regarding Outage Reporting to Interconnected Voice Over Internet 
Protocol Service Providers and Broadband Internet Service Providers, PS 
Docket No. 11-82, at: http://apps.fcc.gov/ecfs/document/
view?id=7021858903.
    \14\ See In the Matter of the Proposed Extension of Part 4 of the 
Commission's Rules Regarding Outage Reporting To Interconnected Voice 
Over Internet Protocol Service Providers and Broadband Internet Service 
Providers, PS Docket No. 11-82, Report and Order, FCC 12-22 (rel. Feb. 
21, 2012, at note 230, mimeo at 43: (``We note that, in its ex parte 
filing on February 8, 2012, NARUC requests that the Commission provide 
State commissions with an opportunity to have direct and immediate 
access to outage reporting data and to all outage reports filed by 
interconnected VoIP service providers. See, NARUC February 8, 2012 Ex 
Parte Filing. NARUC's request is beyond the scope of this 
proceeding.'')
---------------------------------------------------------------------------
    There is concern about the confidential treatment of such data in a 
handful of states due to their open record laws. However, that should 
not prevent the sharing of vital public safety information. The FCC 
should grant immediate access to the outage database and reports for 
those states meeting the confidentiality requirements. For those that 
do not meet such requirements the confidentiality issues can be easily 
resolved by requiring them to issue a certification that the 
information will be kept confidential, as has been done in the past. In 
addition, many states have statutory authority to protect highly 
sensitive or competitive information from public disclosure.\15\
---------------------------------------------------------------------------
    \15\ The Arkansas Commission's authority to keep information 
confidential is in Ark. Code Ann. Section 23-2-316(b): ``(b) (1) 
Whenever the commission determines it to be necessary in the interest 
of the public or, as to proprietary facts or trade secrets, in the 
interest of the utility to withhold such facts and information from the 
public, the commission shall do so. (2) The commission may take such 
action in the nature of, but not limited to, issuing protective orders, 
temporarily or permanently sealing records, or making other appropriate 
orders to prevent or otherwise limit public disclosure of facts and 
information.''
---------------------------------------------------------------------------
    Emergency 911 services are a top priority in every State. Even in 
states that have adopted deregulatory telecom policies in recent years, 
all of them have focused on the need for continued oversight of 911 
services. Emergency services and network reliability are a core value 
that does not change with the evolution of technology.
    The IP transition is not about regulation or deregulation. The FCC 
has ample tools in the 1996 Act to eliminate unneeded regulation 
through the forbearance process.\16\ Nor should the debate be 
technology-focused.
---------------------------------------------------------------------------
    \16\ See, e.g., 47 U.S.C. Sec. 160(c) (``Any telecommunications 
carrier, or class of telecommunications carriers, may submit a petition 
to the Commission requesting that the Commission exercise the authority 
granted under this section with respect to that carrier or those 
carriers, or any service offered by that carrier or carriers.''). See 
also, 47 U.S.C. Sec. 253.
---------------------------------------------------------------------------
    A change in the technology to provide a ``functionally equivalent'' 
voice service cannot allow carriers to escape State and Federal 
disaster recovery, service quality, law enforcement access, universal 
service, disabled access and interconnection obligations. If the FCC is 
truly interested in a resilient network and reliable emergency 911 the 
best thing it can do is provide legal certainty over the classification 
of VoIP services and apply its policies in a technology-neutral manner.
    In conclusion, what is important are the values we apply to the 
communications network not the technology used to deliver it. Chairman 
Wheeler has espoused four key values, which he refers to as the 
``Network Compact''. They are universal accessibility, reliable 
interconnection, consumer protection, and public safety and security. 
The FCC reiterated these values and noted the need for the agency to 
work with State, local and tribal governments to uphold these values in 
its IP-transition trials order.\17\ NARUC agrees that is what the Act 
requires. We have adopted our own set of guiding core principles.
---------------------------------------------------------------------------
    \17\ ``State, local and Tribal governments and leaders share this 
challenge, along with other Federal entities. We will work alongside 
each other to ensure that, as networks transition, public safety is 
assured, access is universal, competition is promoted, consumers are 
protected, and the Nation remains well-served by its critical 
communications infrastructure.'' From paragraph 9, Page 5, FCC Order, 
Report and Order and Further Notice of Proposed Rulemaking, Report and 
Order, Order and Further Notice of Proposed Rulemaking, Proposal for 
Ongoing Data Initiative, GN Docket No. 13-5, GN Docket No. 12-353, WC 
Docket No. 10-90, CG Docket No. 10-51, CG Docket No. 03-123, WC Docket 
No. 13-97, adopted January 30, 2014, available online at: http://
transition.fcc.gov/Daily_Releases/Daily_Business/2014/db0131/FCC-14-
5A1.pdf.
---------------------------------------------------------------------------
    In November 2012, NARUC chartered a task force on Federalism to 
review NARUC's 2005 policies and paper and to determine any changes to 
those policies required by the changing communications landscape. The 
resulting whitepaper was unanimously adopted at the NARUC Annual 
Meeting in November 2013.\18\ At its foundation are core principles in 
line with that of the 1996 Act, and Chairman Wheeler's ``network 
compact.'' They are: consumer protection; network reliability and 
public safety; competition; interconnection; universal service; and 
regulatory diversity.
---------------------------------------------------------------------------
    \18\ NARUC Federalism Task Force Report: Cooperative Federalism and 
Telecom In the 21st Century, adopted November 2013 and available at: 
http://www.naruc.org/Publications/Federalism-task-force-report-
November-20131.pdf.
---------------------------------------------------------------------------
    While technologies change the expectations of consumer do not. 
Consumers expect the same quality of service, reliability, access to 
emergency service and the protections to which they have grown 
accustomed.
    When hurricanes, tornadoes or other natural disasters unleash their 
destructive force they do not discriminate between a copper, fiber, or 
wireless networks. It is precisely for this reason that we as 
policymakers should not discriminate in applying our values. These 
values must be applied consistently and in a technology-neutral manner, 
especially when it relates to public safety.
    Consumers moving to these new services must be educated on their 
limitations and vulnerabilities as much as they are about the exciting 
bells and whistles. They must be informed of their new obligations, 
such as the responsibility to maintain battery backup systems. Failure 
to provide such vital information could prove deadly. NARUC members 
deal with network resiliency on a regular basis across the utility 
spectrum. We stand willing and able to work with this subcommittee, the 
whole of Congress, the FCC and industry to make sure all Americans 
enjoy the benefits of a resilient communications network. Thank you for 
your time and I look forward to any questions you may have.

    Senator Pryor. Thank you.
    Ms. Smith?

              STATEMENT OF GIGI SMITH, PRESIDENT,

          ASSOCIATION OF PUBLIC-SAFETY COMMUNICATIONS

                 OFFICIALS (APCO) INTERNATIONAL

    Ms. Smith. Good morning, Chairman Pryor, Ranking Member 
Wicker, and members of the Subcommittee. My name is Gigi Smith, 
and I am the President of the Association of Public Safety 
Communications Officials, or APCO. Thank you for inviting me 
back to testify on yet another important public safety matter.
    APCO is the world's oldest and largest organization of 
public safety communications professionals. Our members field 
911 calls, dispatch critical information to first responders, 
and manage the communications networks used by first 
responders.
    I have been active in public safety for over 28 years, 
starting as a 911 call-taker and now serving as the police 
operations manager for the Salt Lake Valley Emergency 
Communications Center in West Valley City, Utah. I bring the 
perspective of an association that is focused on how technology 
shifts, including the IP transition, impact public safety.
    The IP transition will bring a number of benefits. We are 
fully embracing efforts to bring IP technologies into public 
safety communications by supporting the FirstNet network, 
driving Next Generation 911 deployment, and ensuring 
development of the most effective apps for public safety, among 
other initiatives.
    I would like to now briefly mention a few considerations 
regarding the impact of the IP transition on public safety.
    First, IP-based networks must be reliable, supporting 
access to 911 communications between dispatchers and first 
responders, and communications of emergency operations centers 
and first responder agencies.
    Second, IP networks present new vulnerabilities. Service 
providers should incorporate security procedures, failover 
plans, and mitigation strategies to best protect public safety 
communications.
    Third, copper networks are self-powered, whereas IP 
networks rely on power from the consumer electric grid. IP 
network designs need to consider stand-by power, battery back-
up, and other contingency plans.
    Fourth, IP networks must maintain the quality of location 
information for 911 calls, and we encourage exploration of how 
IP can offer improved capabilities.
    Fifth, IP and Next Generation 911 transitions in the public 
safety community will be more gradual than for nonpublic safety 
networks. Certainly, additional funding at the national level 
would support more rapid adoption of next-generation technology 
by PSAPs and, thus, help public safety keep pace with the 
industry's IP transition.
    Finally, some service providers offer or may require 
wireless replacements to landlines. We need to preserve 
existing levels of 911 service in these cases.
    In summary, we believe that the IP transition holds great 
promise. APCO looks forward to working with the Subcommittee 
and all stakeholders to help guide the best path forward.
    Thank you, and I look forward to answering any questions.
    [The prepared statement of Ms. Smith Follows:]

  Prepared Statement of Gigi Smith, President, Association of Public-
          Safety Communications Officials (APCO) International
    Good morning Chairman Pryor, Ranking Member Wicker, and Members of 
the Subcommittee.

    My name is Gigi Smith, and I am the President of the Association of 
Public-Safety Communications Officials International, or APCO 
International. Thank you for inviting me back to testify on yet another 
important public safety matter.
    I'm pleased to have the opportunity to highlight the public safety 
implications of the transition of the Nation's communications 
infrastructure to IP-based technologies.
    I have been active in public safety communications for over 28 
years. I started as a 9-1-1 call taker, and then worked my way through 
the ranks of dispatcher, trainer, supervisor, and I now serve as the 
Police Operations Manager for the Salt Lake Valley Emergency 
Communications Center in West Valley City, Utah. My Public Safety 
Answering Point (PSAP) is a 9-1-1 police, fire, and emergency medical 
services dispatch center.
    Thus, I am very familiar with the impact of changing technologies 
on the 9-1-1 system and emergency dispatch operations, including how 
best to ensure that as we embrace new technologies, we preserve, and 
improve, the safety of the public and first responders.
    APCO International is the world's oldest and largest organization 
of public safety communications professionals, at over 20,000 members. 
Our members are mainly state and local government employees who manage 
and operate communications systems for law enforcement, fire, EMS and 
other public safety agencies. Effectively, our members field 9-1-1 
calls, dispatch critical information to first responders, and are 
integral to the implementation of the critical communications networks 
used in the field by first responders. In all of these respects, APCO 
International provides the training, certification, technical, and 
standards development resources to make the most effective and 
efficient use of communications technologies in use today or planned 
for the future.
    So as President of APCO, I also bring the perspective of an 
association that is focused on current and future implications of 
technological shifts, including the IP transition.
    We recognize that the transition of the Nation's communications 
networks to IP technology will bring many benefits to the public at 
large, such as the ability to deliver and share content rich video and 
multimedia messages, with increasing quality.
    At the same time, maintaining and improving voice quality remains 
very important. This is because sometimes the ability of 9-1-1 call 
takers to hear and pass along subtle background sounds, like someone 
racking a shotgun, can make a significant difference to the first 
responder.
    Just as another example, IP and related technologies also present 
us with an opportunity to acquire and utilize data on a large scale, 
which can help to identify ways to improve efficiencies in emergency 
response like never possible before.
    Indeed, we are fully embracing efforts to bring IP and other 
advanced technologies into the public safety communications arena. We 
are actively supporting the FirstNet network, leading the way to 
responsibly drive implementation of Next Generation 9-1-1 (``NG9-1-1'') 
networks, and ensuring development of the most effective mobile apps 
for public safety and emergency response purposes, among other 
initiatives. And there are other public safety communications 
capabilities that APCO is involved with that also will be impacted by 
the IP transition, including priority services, emergency alerting, and 
other existing and growing sources of information such as alarms, 
sensors, video, and social media.
    For the remainder of my testimony, I will offer a few 
considerations we believe should be kept in mind as we explore how best 
to preserve the needs of the public safety community.
Reliability
    Let me begin with reliability, as this was a term wisely included 
in the title of today's hearing.
    Reliability has a unique importance in public safety--for example, 
when else would you want to have a more reliable communications 
capability than during a large-scale emergency? This means that 
communications networks need to continue to serve the 9-1-1 system, and 
the first responder community, in the wake of wide-scale physical 
damage, at times without advance warning, and with rapid and sustained 
surges in traffic demand.
    Over decades, current time-division multiplexing (TDM) copper 
networks have been built to a very high reliability level of 99.999 
percent. While more capable, and feature rich, IP-based networks may be 
less reliable. Thus, the design of IP-based networks should incorporate 
a reliable, redundant standard that anticipates real world conditions 
such as the ability to handle scalable traffic in emergencies. This 
includes supporting the ability of the general public to reach 9-1-1, 
the communications between dispatchers and first responders, and the 
communications systems supporting emergency operations centers and 
first responder agencies. IP-based networks, when properly designed and 
implemented, should be both logically and physically redundant.
    APCO has been at the forefront of identifying reliable and 
redundant standards for advanced communications networks. Most 
recently, APCO worked with the National Public Safety 
Telecommunications Council to develop and deliver to FirstNet a report 
on ``public safety grade'' requirements. While these requirements were 
designed to provide guidance to FirstNet, many aspects of this report 
are equally applicable to, and should be part of, any IP network design 
intended for use or interconnection with public safety.
    A related matter is service quality. In the IP world, as in 
wireless, ``quality of service'' is a key indicator. Thus, IP networks 
not only need to be reliable, but deliver the priority and quality of 
service required for public safety-related communications.
    Also related to reliability is recovery and restoration 
particularly in the wake of severe natural or man-made disasters. On 
the plus side, IP networks are redundant by design. But as Hurricane 
Sandy and other disasters have shown, Mother Nature can defeat even the 
best designed networks. And the rollout of IP networks will involve 
multiple components serviced by multiple companies, which will require 
a new level of coordination and associated procedures to ensure rapid 
service restoration. Further, response plans should include appropriate 
priority for public safety communications.
Security
    As public safety and the industry have already experienced, 
security is a critical issue. IP networks present new cyber-security 
and related vulnerabilities as compared to the ``closed loop'' legacy 
communications infrastructure. IP networks have been compromised by 
hackers, and denial of service, spamming, swatting, and other attacks 
are even more easily perpetrated on an IP-based system, including 9-1-1 
networks. Security also becomes a cascading and increasingly complex 
problem to address, since an all-IP environment introduces a new 
variety of transport providers, network service providers, and 
interconnect players.
    Thus, service providers should incorporate security procedures, 
failover plans, and mitigation strategies into their network design to 
best protect PSAP and other public safety communications.
Power
    Copper-based networks are self-powered, whereas IP-based networks 
rely on power from the consumer electric grid. Thus, IP-based networks 
are more susceptible to power outages. During power outages, telephone 
service will not be available unless sufficient backup power is 
available. Further, IP networks bring a paradigm shift for the 
consumer, as the customer now becomes responsible for maintaining and 
ensuring battery back-up. Consider how important it has become for 
people to be able to-recharge their mobile devices in the wake of power 
outages that accompany emergencies. In this respect, consumer education 
will also be key. IP-based network designs need to consider stand-by 
power, battery back-up, and other contingency plans for power supply.
Location Information
    Today's wireline networks typically provide very dependable and 
actionable, or as we say, ``dispatchable'' addresses, such as the 
specific street address of a 9-1-1 caller. Of course, this issue is 
near to me, as I spoke on the topic of wireless location accuracy in 
January before this very subcommittee. As I said back in January, the 
prompt and effective dispatch of appropriate emergency services to any 
reported event is dependent upon obtaining the best location 
information possible from the caller. Further, this essential element 
of dispatching must occur regardless of the technology used to access 
9-1-1.
    As it relates to the IP transition, ensuring that the general 
public can reach emergency services in the first place is paramount. At 
the same time, new technology permits innovative solutions that can 
improve upon existing location technologies. Thus, we encourage active 
exploration of how to harness and implement such capabilities from the 
start.
Impact on 9-1-1 and Next Generation 9-1-1 Networks
    We expect that the transition of the Nation's communications 
networks will be an evolution, following a relatively steady process. 
But as compared to the transition to NG9-1-1, it will likely occur much 
more rapidly. To date, IP and NG9-1-1 transitions in the public safety 
community have been partial, and typically on a PSAP-by-PSAP and 
carrier-by-carrier basis.
    Thus, IP networks will need to interconnect effectively with both 
legacy 9-1-1 and Enhanced 9-1-1 networks, as well as new text-to-911 
services and future NG9-1-1 networks. Further, service providers will 
have to account for the fact that public safety networks will be 
provided by a variety of service providers, both private and public. In 
addition, IP networks will need to adhere to the two prevailing 
standards that are being deployed for NG 9-1-1 services. One is known 
as ``i3'' that some PSAPs are deploying today, and the other is IMS (IP 
Multimedia Subsystem), which we expect will be the standard used by 
many PSAPs as well as by FirstNet.
    In the current economic environment, local governments are more 
likely to devote scarce resources first to public safety operations 
that directly impact both responders and the public (e.g., radios, 
squad cars, fire engines, ambulances, and related equipment and 
supplies). As a result, legacy PSAPs are likely to remain operational 
for some time, and there will be a need to interconnect new IP-based 
networks to multiple PSAP types for many years to come. Certainly, 
additional funding mechanisms at the national level would support more 
rapid adoption of next generation technology at the Nation's PSAPs, and 
thus help public safety keep pace with the industry's IP transition.
    At the same time, public safety's transition to NG9-1-1 will 
present a number of opportunities and synergies with the evolution of 
communications networks to IP. Commonalities will include increased 
multimedia features, new network redundancy options, standardized 
interfaces for improved interoperability and information sharing, and a 
broader vendor and service provider ecosystem. APCO has been working 
with the industry with all of this in mind, and intends to continue to 
pursue ways to collaborate on network design and implementation to 
anticipate and meet the needs of the public safety community.
Wireless Options
    Finally, let me briefly touch on how the IP transition can lead to 
wireless replacements of copper and TDM-based networks. In some early 
offerings, service providers offer wireless replacements as an option 
to consumers, and in others, a wireless replacement product may be the 
only option.
    In such cases, we believe that certain steps will be necessary to 
preserve existing levels of 9-1-1 service. We support development of 
technology that can provide the equivalent of the home address, and 
detect when the device has been relocated to ensure the address is 
updated. Also, we recommend that the wireless network serving a 
wireless-only residence is made as redundant and resilient as possible 
to withstand natural or man-made disasters and afford sufficient 
network access and capacity.
    In sum, we believe that the IP transition holds great promise for 
public safety communications, provided that the aforementioned issues 
are addressed. In this regard, APCO looks forward to working with this 
Subcommittee, and all stakeholders, to help guide the best path 
forward.
    Thank you for the opportunity to address you, and I look forward to 
answering any questions you may have.

    Senator Pryor. Thank you.
    Ms. Honorable, let me start with you, if I may, and that is 
kind of pick up where Ms. Smith left off there about 911 
service.
    As we move forward, does it make sense that 911 service is 
more of a Federal function or a State function? Specifically, 
you know, I think we all recognize how important 911 service 
is, what a great success it has been, but as we transition to 
IP-based--you know, how should we make sure that our 911 
service has the integrity that it has up to this point?
    Ms. Honorable. Thank you, Senator, for the question.
    The NARUC community believes that it is a proper State 
function. I believe the success that we have enjoyed thus far 
has been precisely because of the ability of the states to work 
very nimbly and with flexibility within their borders to not 
only coordinate and have oversight, but also to respond in 
emergent situations.
    When I think back over the severe weather events that we 
have had over the past few years--and we have, indeed, had 
many, as many of the members of the Subcommittee have--the 
ability of first responders of our State Department of 
Emergency Management, of our Governor's office, of the local 
and county officials, as well as the State public utility 
commissioners, to participate very aggressively with 
coordination efforts, even at heightened levels than ever 
before, it is imperative that we have the ability to respond 
quickly, that we have the ability to oversee 911 efforts 
locally because the ultimate goal is safety.
    The ultimate goal is public safety and ensuring that we use 
every tool to respond as promptly as possible, and the best way 
to do so is to ensure that that is occurring at the State 
level.
    Senator Pryor. Are there any States, though, that have 
State laws that would prohibit the State PSE or PUC, whatever 
they call it in their State, to do 911 requirements on an IP 
system? Are you aware of any?
    Ms. Honorable. No, I am not aware. There are certainly 
other State prohibitions with regard to telecommunication 
services more broadly. As you know, many states have undergone 
deregulation. But certainly, the 911 core functions are carried 
out at the State and local levels.
    Senator Pryor. Mr. Banks, let me ask you, I have a concern 
about us going to IP, and some of you all have mentioned this. 
I mean, obviously, there is great innovation with it, and there 
is a lot of good things with it. I don't want to say it is all 
bad because it is not at all.
    But we all know and our experience has been that when a lot 
of people are on the Internet, sometimes it runs slower, and we 
talked about the power, the need for, you know, electricity, 
and if electricity goes out, you lose your power. So how do we 
resolve that with--how do we resolve that in the 911 world, or 
when there are emergencies or some crisis, that too many people 
get on the system, and how do we make sure as we go forward 
that we don't have that problem?
    Mr. Banks. Thank you.
    There is always an issue around disasters when networks can 
be overloaded, and that can be a wireless network, a 
traditional copper network, or another network. I think the 
first thing that puts us in a better position for all this than 
we were a decade or two ago is that there are multiple networks 
throughout the country.
    So, in general, people can use their traditional wireline 
network. Their neighbor might be on a cable network. There are 
four or more wireless networks, and 90-plus percent of 
Americans have at least one mobile phone in the home. So there 
are these multiple networks people can turn to, and if any one 
network gets overloaded, that doesn't mean no one can get 
through to 911.
    But fundamentally, you are asking a very good question 
about designing robustness into these systems, and that--that 
is a challenge for our industry, the wireless cable industries, 
and the public safety community to work together to make sure 
that there are the right number of trunks to PSAPs, that there 
are back-ups and overflow systems.
    So, you know, this is one of these technological challenges 
we are working through with this transition and working through 
at DHS, with APCO and the public safety commission, with the 
FCC, and you know, we are very focused on that.
    Senator Pryor. Senator Wicker?
    Senator Wicker. Thank you.
    Let me ask about the transition between the copper line 
networks and IP, fiber. It obviously doesn't all happen at 
once. So there is a lag there.
    Let me start with Mr. Banks. Substantial geographic areas--
and therefore, substantial numbers of individuals--will be 
living in areas that will continue to be served by copper, 
which we call TDM, and others will be in the transition to IP 
areas. How will providers and your members ensure that these 
communities will maintain the ability to communicate with areas 
served by all IP networks?
    Mr. Banks. Well, thank you.
    I think that the customers you are talking about, the TDM 
or the old-fashioned copper customers, are all customers of the 
members of USTelecom. They are our customers. We have been 
serving them for decades. Our companies have every intention of 
making sure those people can call whomever they want, and when 
people call them, that those calls go through.
    So I think the commitment is there. I think there are 
occasional unfortunate rural call completion issues that your 
question probably touches on. But our members who serve these 
people every day are going to make sure that those calls can go 
through, for the next--for however long it takes to get through 
the IP transition.
    Senator Wicker. Do you need any help from--from the 
Congress in that regard?
    Mr. Banks. There is a substantial effort at the FCC to 
understand some of these rural call completion issues going on, 
and the FCC is gathering data from across the industry. So I 
think--we are very involved in that, in the provision of data, 
and I think we need to see the outcome of that FCC 
investigation.
    Senator Wicker. Let me toss this topic to you, Mr. 
Schulzrinne. Are there any novel technical challenges to 
maintaining connectivity in this incremental area-by-area 
phaseout?
    Mr. Schulzrinne. Yes, I believe there are. The challenge is 
always when you have an old technology and a new technology. 
The danger is that investment in the old technology lags and 
that there are complexities that are incurred because you need 
to interconnect the old technology to the new technology.
    I briefly mentioned the CAMA trunk problem, where even in 
areas which are now served by IP, for example, most of the 
cable customers are typically on Voice over IP systems, they 
still reach PSAPs through these legacy trunks, which are often 
capacity limited, that are brittle, poorly maintained in terms 
of their vendor support, and very few people still understand 
how they operate. So the transition, I believe, in many cases, 
if it happens faster across the network, can prevent these 
types of interruptions.
    For the call completion issues, I do believe there are 
opportunities that as we transition to Voice over IP-based 
interconnection, as opposed to TDM-based interconnection, that 
the number of places where things can go wrong decreases.
    Similarly, the Commission has started an effort, as part of 
its investigation of telephony numbering, to improve the data 
bases, which, at least in some cases, are implicated in making 
it difficult to route calls to the correct destinations and 
leads to call failures.
    Senator Wicker. Ms. Honorable, do our friends at the State 
regulatory level have any insights to offer in this regard?
    Ms. Honorable. Yes sir, Senator Wicker. Yes, we do, thank 
you.
    We have been engaged with the FCC, even at the highest 
levels. I have personally met with Chairman Wheeler about the 
IP transition issue, and I want to applaud the FCC for engaging 
the states.
    They recognize that we have a significant role to play in 
aiding in a smooth transition, and we have been particularly 
interested and concerned about doing our part to ensure a 
smooth, or smoother, transition. And we hope to watch with 
great interest the IP trials, and we have been following and 
working with the FCC and its staff to ensure that State 
regulators are involved, offering feedback.
    Again, the ultimate goal that we share is the same, and it 
is to ensure public safety, but also from a regulatory 
perspective, ensuring the same tenets we have come to know, the 
same quality of service, the same ability for consumers to have 
optionality, and for them to have consumer protections as well.
    Senator Wicker. Thank you all.
    Ms. Honorable. Thank you.
    Senator Pryor. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Senator 
Pryor, for holding this important hearing.
    Senator Wicker, if there is one thing every person is 
concerned about, I know from my former job as a prosecutor, is 
public safety, and we need to make sure that these new 
technologies are functional.
    There are many opportunities. You know, firefighters 
walking into a building that will maybe be able to see 
immediate blueprints or video of what is in there. And you have 
Minnesotans who get stranded out on snowmobiles when they break 
down, and they are--their only hope is to have some kind of a 
GPS system if they are lost. And we have seen some really good 
rescues, actually, because of technology, but we know that 
there are also challenges.
    I am the Chair of the Next Generation 911 Caucus, and I 
continue to be an advocate for deploying this community 
technology and this modern technology and our efforts. As with 
many members of this subcommittee, I have been concerned about 
call completion. It is not going to help if people are making 
911 calls, if they can't complete them. And this is especially, 
as you know, Ms. Smith and Ms. Honorable, is a problem in the 
rural areas.
    And what I wanted to know from the NARUC perspective, is if 
you have been supporting the action by the FCC? As you know, 
they just issued a new consent decree, announced yesterday, 
with Matrix Telecom, and can you expand on how this issue is of 
a concern to public safety if we can't complete the calls?
    Ms. Honorable. Senator, thank you for the question.
    Thank you for your concern, also we share in that, on both 
points that you have mentioned. One, regarding public safety. 
And after Hurricane Sandy, NARUC issued a strong resolution, 
which calls for heightened coordination, particularly among the 
utility and telecommunication sectors.
    For some time, we have been operating within our own silos, 
but the lesson we have learned from Sandy and the derecho storm 
and others is that there is a strong symbiotic relationship 
between both the utility sector and telecommunications. They 
need one another.
    The telecom sector can't do an effective job without the 
electric infrastructure, and the electric infrastructure can't 
communicate and get the lights back on without a strong 
telecommunications effort to restore service once there has 
been an interruption. So we have been very active there.
    Particularly also on call completion, too, the second issue 
that you raised, we have also issued resolutions on call 
completion. We commend the FCC's efforts, even yesterday, with 
regard to that consent decree.
    This is such an important issue. The calls have to go 
through because lives are on the line, and we recognize that. 
And we are very committed to continuing to raise these issues 
and aiding where we can, as State regulators, to making sure 
that we see this through because lives depend on it.
    Senator Klobuchar. Thank you very much.
    And Senator Fischer has been working with me on that 
effort, and I appreciate your help on this as well.
    We are starting to see text to 911 services, as I 
mentioned, being launched, and someday we may be able to see, 
as I mentioned, video to 911 services. Ms. Smith, how do you 
view the potential for these innovations, and how will the IP 
transition help or hinder these efforts? What is the balancing 
act that we need to see to ensure that the new networks have 
what they need to provide the services?
    Ms. Smith. Well, there is a balancing act, and as Mr. 
Wicker mentioned earlier, this is an exciting transition. So, 
for me personally, being the police operations manager of a 911 
center, it is exciting to see what the future lies ahead, to be 
able to have these resources for my responders and to be able 
to offer them the information that is needed.
    But with the balancing act, there are pros, and there are 
concerns. And those concerns or those challenges, as we have 
mentioned earlier, come with--you know, we need to have 
reliability, and we have to have security. Reliability. We need 
to ensure that those systems are up, and in the time of need, 
our citizens can call in and reach 911 and get the help that 
they need.
    But we also need to be aware of the security issues. There 
is, you know, cybersecurity to be aware of--TDOS, Telephony 
Denial of Service, swatting, spamming, those types of things. 
So that our systems aren't taken down, but instead, we know 
that they are reliable, that they are there when they are going 
to be needed.
    Senator Klobuchar. And one last question. When we passed 
the Spectrum Act, I included an amendment that would allow 
revenue from the incentive auction that wasn't allocated to 
FirstNet or paying down the deficit to go to Next Generation 
911 upgrades, including the implementation of IP-enabled 
emergency services and applications. We expect the auction to 
put--take place next year.
    I know we hope the auction raises enough revenue to provide 
these resources to upgrade our 911 systems, but in the 
meantime, what other Federal resources are available to help 
PSAPs as they work to keep up with this evolution to IP?
    Ms. Smith. I think funding is a very important question, 
and I don't have the answer specifically as what other fundings 
are available, but I can definitely look into that, and we can 
respond back.
    But I do--I would like to say that, you know, funding is 
important in as much as that, I know my own center, we just 
went through where we are now able to connect with IP, and I 
know how much we spent, just under $400,000. And with that, 
that is just for the equipment only. That doesn't include the 
training, the personnel, and the other equipment that is going 
to come with it.
    Times that by approximately 6,000 PSAPs that are across the 
Nation. There is going to be a large cost, and it is very 
important that--you know, we understand and we are very 
appreciative that those funding sources may come, and will be 
coming later, but the same time, we need to have something 
immediate in order to ensure that public safety does not lag 
behind and that we can keep up with the industry.
    Senator Klobuchar. Thank you.
    Senator Pryor. Thank you.
    Senator Johnson?

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    I apologize for not being here for all of the testimony, 
but Mr. Banks, I am a numbers guy. It looks like your testimony 
had more numbers----
    [Laughter.]
    Senator Johnson. --so I want to try and define the problem 
here. We are talking about transition from, you know, copper to 
IP. How much has already been transitioned? I mean, how much do 
we have left to go?
    Mr. Banks. Well, I would say that if you look across 
America's households, about 25 percent still have regular, old-
fashioned POTS, copper-type phone service. I would say the vast 
majority of America's businesses have switched to IP-based 
systems.
    Senator Johnson. Of that 25 percent, though, how much--how 
many have easy access to upgrade, to make the transition?
    Mr. Banks. Uh----
    Senator Johnson. Or is it all, is that 25 percent just a 
problem?
    Mr. Banks. No, no. So the most--much of that 25 percent 
also has a cable system available or, like many households, 
could switch to wireless. The upgrade path for those homes to 
go to IP is--depends very much on where they are. In some of 
the more rural areas, it is a longer term issue.
    Senator Johnson. That is what I am trying to find here. 
What percentage of people that haven't transitioned is the real 
problem? Where we really have to be concerned about, you know, 
companies like yours, you have made significant investments, 
$671 billion, into--you know, into the infrastructure, but what 
percent is really the problem?
    Mr. Banks. That is a difficult number to give you, but 
having the FCC follow through on the right universal service 
reform to ensure that people that have these really old--the 
older networks in rural areas, that there is a business case to 
upgrade.
    Senator Johnson. Mr. Schulzrinne, you look like you want to 
jump in here?
    Mr. Schulzrinne. I just wanted to comment from a technology 
perspective and, as Mr. Banks alluded to, somewhat different 
circumstances. So the one is where only TDM is available, and 
that is, I think, a relatively small number of places, but they 
exist where no robust IP networks exist and, in particular, 
where not all rural telecom providers offer Voice over IP 
services because that would run over copper.
    Senator Johnson. So just give me a percent. Are we talking 
about 1 percent? Are we talking 10 percent?
    Mr. Schulzrinne. It is hard to pin that down.
    Senator Johnson. I am just looking for a ballpark.
    Mr. Schulzrinne. Order of magnitude, I would say, it is 
probably in the 5 percent-ish range.
    Senator Johnson. OK.
    Mr. Schulzrinne. But that changes on a year-by-year basis.
    Senator Johnson. But again, we are talking about we have 
got a 5 percent problem here.
    Mr. Schulzrinne. Yes, the problem is, however, also one 
where a number of consumers have chosen to retain a landline 
because they value the features of a landline. So, indeed, one 
carrier has recently offered a 911-only service on a 
traditional landline for a relatively modest fee, presumably to 
address consumers that want to retain those or that do not want 
to subscribe to, say, a cable service.
    Senator Johnson. OK, I know there has been some discussion, 
I think, action, of course, as to how we are going to actually 
regulate broadband. Anybody here on the table really want to 
regulate broadband under the telecom rules? Is there anybody?
    I mean, guys, I assume nobody wants to do that? Or----
    Ms. Griffin. I would say that I think that the values that 
underlie the phone network apply just as much as we move to the 
next generation of communication services and broadband. I 
think that how those rules look may be a little different than 
what we have done in the phone network because it is a 
different technology, and it operates differently.
    But at the end of the day, we still want everybody to have 
access to what the basic service is, and as that moves to 
broadband, then we need to make sure that we still have rules 
that are ensuring everybody has access to that, too.
    Senator Johnson. Ms. Griffin, in notes on your testimony, 
it sounds like you are not necessarily believing the broadband 
companies have an incentive to make sure that, you know, the 
majority of the calls go through and that you really think 
Government has to--is that--is that your position? Do you 
really need Government to force broadband providers to make 
sure that their service is excellent?
    Ms. Griffin. I think that--we have seen some reports where 
there have been failures, like cases in rural call completion, 
and the lesson I take there is that even in situations where 
there may not be any bad actors, new technologies can create 
situations where nobody really has an incentive to absolutely 
guarantee that calls go through, and then maybe----
    Senator Johnson. Do you think Government can absolutely 
guarantee that every call goes through? Do you think Government 
really has got a better capability, as opposed to the broadband 
carriers themselves, to provide excellent customer service. If 
you have a company and you are providing a service, if it 
doesn't work very often, don't you think customers are going to 
switch to a different company?
    Don't you think competition would actually do a far better 
job than having the heavy hand of Government try and guarantee 
that, which, I don't think it would do?
    Ms. Griffin. Well, I think in too many areas, competition 
doesn't exist or isn't robust enough to really guarantee that 
people are going to have a meaningful choice, particularly, 
say, if they are using a heart monitor, and they may be able to 
switch to a wireless service, but it wouldn't support the heart 
monitor or something like that, or if the new service isn't 
affordable.
    So I think that the essential promise of the phone network 
is that when you make a call, it goes through, and that should 
be the goal of the Government is to make sure that we are 
fulfilling that promise.
    Senator Johnson. Mr.--I am running out of time, but Mr. 
Banks, would you just like to respond to Ms. Griffin there?
    Mr. Banks. I think that the vast majority of Americans have 
multiple choices for how they communicate, and that 
interconnection is part of how the whole industry works. So 
completing calls is essential to any company being able to sell 
voice service, and you see this on the wireline side.
    On the wireless side, the Government does not get involved, 
telling wireless companies how to connect and not connect. And 
interconnection happens in the free market there. There is no 
reason to think it wouldn't happen throughout the rest of the 
industry.
    Senator Johnson. Thank you, and thank you, Mr. Chairman.
    Senator Pryor. Senator Ayotte?

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you, Mr. Chairman. I want to thank 
all of you for being here.
    I want to follow up on some of the points Senator Johnson 
has made. As I understand it, the purpose of the Universal 
Service Fund is really to build out capacity--used to be hard 
lines, now we are looking at broadband because of what we are 
talking about today in terms of an IP transition, which makes 
sense, in terms of technology.
    I represent a state that gets really shortchanged under 
this fund, 37 cents on the dollar, and, I would love to have 
any of you drive around New Hampshire with me in the rural 
areas, and you can see that we really have significant needs 
that aren't being addressed. So I have introduced legislation 
to make it more equitable, reform this fund. I want the FCC to 
act further, to reform universal service.
    But, Mr. Banks, when we are thinking about this percentage 
that Senator Johnson asked you about, really what we are 
talking about perhaps are rural areas where you are not going 
to have the business incentive to build out capacity, and that, 
as I understand it, is why we have the Universal Service Fund. 
So what are your thoughts, in terms of IP transition, as a way 
of more effectively using the Fund, and what opportunities do 
you see for rural America with the Universal Service Fund in 
this IP transition?
    Mr. Banks. Yes.
    Senator Ayotte. And please correct me if I am wrong in 
terms of what I think the purpose of this fund is in terms of 
what we are trying to accomplish here.
    Mr. Banks. No, you are absolutely right. The purpose of the 
USF fund is to connect Americans. The FCC is engaged in a major 
reform of a big part of that fund, the part of the fund for 
larger companies, and increasing the funding available to 
larger companies to serve people who wouldn't be served 
otherwise.
    The FCC--that was an FCC 2011 reform order. The FCC is 
still working to implement that, to operationalize it. 
Hopefully, that will be in place by 2015, and for the larger 
companies, funds will flow in a much more targeted way, more 
funds to connecting people in census blocks where they have no 
options, no other service.
    Senator Ayotte. What about the smaller companies as well? I 
mean, as we think about----
    Mr. Banks. Right.
    Senator Ayotte.--this IP transition, how do we think it 
will impact competition? I think that is an important issue for 
consumers, and also as we look at reform of the USF fund. And 
you know, I have heard a lot of concerns, obviously, with this 
transition from rural carriers as well.
    Mr. Banks. Right. So part two of the USF reform is 
reforming the smaller company, the rural company fund. The FCC 
made some reforms that were ill advised. To the FCC's credit, 
and Chairman Wheeler, he has taken those off the table and is 
going to issue a notice of rulemaking to modernize the fund for 
rural carriers, just like they modernized the fund for larger 
carriers. That is a very big deal and very important to get 
that right.
    In terms of rural carriers and the IP transition, many 
rural carriers have invested heavily in broadband and fiber and 
IP. So, in many rural areas, IP services are available. The 
right reform of the fund should help a lot with that.
    Senator Ayotte. Mr. Schulzrinne, would you like to comment 
on this? I am sure you have some thoughts on it.
    Mr. Schulzrinne. Yes, let me comment on the technical 
aspect. Thank you for the question.
    The IP transition, unlike in the old--older days where, 
essentially, rural meant you had to extend copper lines to 
remote areas, now offers several choices that will make it, 
hopefully, possible to cost effectively reach all Americans, 
whether that is through fiber, the long-term, probably 
preferred option in terms of capability; extending the 
capability of copper; fixed wireless; and in really remote 
areas, satellite.
    It is important to provide robust broadband to all 
Americans. It allows modern applications--voice, as well as 
video and other applications--to function well. And indeed, to 
explore these technologies in new ways of providing broadband--
robust broadband services as part of a reform effort, Mr. Banks 
mentioned we are looking at an experiment to provide funding to 
both traditional and nontraditional providers to extend 
broadband into rural areas.
    We have received over 1,000 indications of interest from a 
wide variety of organizations--electric utilities, traditional 
carriers--communities working well with these organizations to 
explore providing robust, mostly fiber, but also robust 
wireless services, into areas that are not currently being 
served.
    So I believe that technology transition gives us additional 
opportunity to do that cost effectively and on a schedule which 
may be more aggressive than what we have been able to do in the 
past, where we had to rely on one technology only.
    Senator Ayotte. Well, that actually would be good news for 
many rural areas because, as you know, having the ability to 
connect can determine the economic viability of rural areas as 
well. So I see this as a very important jobs issue.
    So, thank you.
    Senator Pryor. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. A hurricane approaches, knocks out the 
power. Somebody is in dire straits in their home, and they need 
to make a 911 call. In the copper wire, that power source is 
there. In fiber optic, there has generally got to be a power 
source in the house or a battery back-up.
    What do we do? Ms. Smith?
    Ms. Smith. Yes, that is very important. Thank you for the 
question.
    There is going to be a paradigm. There is going to be the 
change. Our consumers, they are used to that. They are used to 
just picking up the phone, and it works for them.
    And I think a lot is going to have to come back on 
education, and that is going to have to be from the industry 
and both from the PSAPs ourselves to educate the consumers how 
important that back-up power is going to be, whether that be, 
as we, in public safety, call our ``plan B,'' meaning that we 
have those sources available to us, whether that be supplied 
with the equipment, whether I know--I know my equipment well. I 
know if it takes an extra battery and how I am going to 
recharge that battery.
    But, that is so important, again, to bring to their 
attention so that they know what the expectation is, and they 
know that they could have those challenges ahead of them, so 
that they can reach help when they need it.
    Senator Nelson. Well, you have got a lot of educating to 
do, if it is anything like smoke detectors and the batteries in 
the smoke detectors.
    Ms. Smith. Well, and absolutely, I realize that. Think 
about how stressed you are now when you have your smartphone, 
your cell phone, and you see that the battery is getting low, 
and you have nowhere to plug it in. Imagine in an emergency, 
you need to make that phone call, you need help, and you don't 
have the power that is necessary.
    So to be able to educate and to put that information out 
there, but also to ensure that the industry is creating what is 
necessary, whether it be, you know, those battery packs they 
are putting into the homes or making those available to the 
customer so that they can have those in their time of need.
    Senator Nelson. Anybody else?
    Mr. Schulzrinne. Let me comment on that from a technology 
perspective briefly. The opportunities are that I think 
industry is learning, and based on consumer experience I 
believe partially that, I think, could help to make that less 
onerous than it is for smoke detectors, for example.
    First, unlike for smoke detectors, these devices typically 
are rechargeable batteries. So, in most cases, they should be 
charged up. However, often, the duration that they provide may 
be sufficient to bridge short disruption, but not longer 
disruption.
    I believe, and this is reflected in some of the comments 
that our technological advisory council has been offering, is 
that there are opportunities, for example, with user 
exchangeable batteries. So you can go to the drugstore and pick 
up new D cells, for example, and some carriers are starting to 
do that.
    With standardized connectors, so that you can use, for 
example, the backpacks that some people have on their cell 
phone to power their own connectivity. And importantly, to 
reduce the power consumption of network units. That has two 
benefits. It reduces the use of energy during normal times, but 
it also allows households to sustain operation, and I believe 
it is important to sustain it for both voice and Internet 
connectivity for much longer duration than we are currently 
able to do.
    Senator Nelson. Well, that is a good suggestion from a 
technological standpoint. Say, for example, with an elderly 
population, the easier that you can make it to recharge those 
batteries, for example, what you just suggested, with the kind 
of thing that we do with cell phones, that is--that 
interconnectability so that a senior citizen knows what to do, 
that is a good suggestion.
    Thank you.
    Senator Pryor. Thank you.
    Senator Markey? And I am actually going to turn the gavel 
over to you, Senator Nelson, because they need me for a quorum 
in another committee. So, thank you.
    Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very, very much.
    It was just 18 years ago, when the Congress passed the 
Telecommunications Act of 1996. I was the House author, and not 
one home in America had broadband in February of 1996. So, 
today, a 12-year old believes that broadband and a 50-inch HD 
screen is a constitutional right, huh?
    [Laughter.]
    Senator Markey. That is how quickly it all moved. No two 
ways about it. And simultaneously, you know, out of my 
committee, we moved the spectrum for the third, fourth, fifth, 
and sixth cell phone license. It was all bottled up, just 
bottled up, so that a couple of companies, you know, controlled 
everything, and you couldn't have a Facebook and eBay and 
Amazon or Hulu, YouTube. You couldn't have all these other 
issues because they were all bottled up by companies, 
competitors that did not want to see that kind of a 
competition.
    And what we had to do as part of that act was to ensure 
that reliability, competition, consumer choice, economic growth 
were all a part of this, and a trillion dollars worth of 
private sector investment went into the marketplace because of 
those couple of laws. Trillion dollars of private sector 
investment, because there was more opportunity for people to 
get out there with their new ideas, their new products, their 
new ways of doing business. But they needed the Government to 
set the rules so the private sector could act.
    And the principle definition of the Act was that everything 
was going to be technology neutral. We weren't going to decide. 
The marketplace was going to decide. So we need to make sure 
that the system is reliable. We have to make sure that public 
safety remains at the core, and we have to make sure that the 
phone network works every single time. We learned that again at 
the marathon bombing in Boston. We each learned it in each one 
of our communities over and over and over again.
    Ms. Griffin, what implications on public safety does the 
D.C. Circuit's Net Neutrality decision have for the transition 
to IP?
    Ms. Griffin. Thank you.
    That court decision has tremendous implications for the 
phone network and the IP transition. One lesson that we can 
take from it is that if the FCC has put a service into the 
information service box, in terms of its regulatory 
classifications, the one thing it can't do is make it act like 
the phone network, and that becomes a huge problem when the 
service we are talking about is the phone network.
    So if we can't--if the FCC can't require carriers to 
complete every call and make sure that we have complete 
reliability in the phone network without reclassifying these 
services as Title II telecommunication services, then that is 
what it needs to do to avail itself of the authority it has.
    Senator Markey. And I agree with you. Ms. Griffin, the 
chairman is from Florida, but how should we evaluate the 
results of AT&T's IP trials in Florida and Alabama? What would 
a success look like?
    Ms. Griffin. I think successful trials would be trials that 
have rigorously and objectively collected data that--on a 
variety of parameters that is designed to inform us about these 
new technologies so we know, for example, what is the impact on 
voice quality, what is the impact on reliability? And trials 
that do so transparently and continue to protect consumers 
throughout the trials so that, even though this is an 
experiment and we are learning, we have safeguards to know that 
people won't be left behind during the trial.
    Senator Markey. Thank you.
    And there are concerns that the IP transition will impact 
vulnerable populations--including seniors, minorities--
disproportionately, who rely on traditional telephone service. 
What steps have to be taken to ensure that the broadband 
services and other services are provided to the public, 
regardless of age or economic circumstances? Does anyone want 
to take that so they can give us an answer as to how we should 
do that?
    Ms. Honorable. Senator Markey, thank you for the question.
    I believe, and certainly, NARUC, the National Association 
of Regulatory Utility Commissioners has been very engaged with 
the FCC on this issue, and I believe that a very broad 
stakeholder involvement process is critical. It is critical to 
make sure that we leave no consumers on the side of the road, 
particularly where so many of our states have substantial rural 
areas, significant senior populations, significant minority 
populations. It takes an ``all hands on deck'' approach, and 
NARUC is certainly part of this process going forward.
    Senator Markey. And Ms. Griffin, there are--some people say 
that because we are moving toward mobile, we really don't have 
to keep a lot of the protections on the books from the 1996 Act 
for the land-based, you know, wireline services. What are the 
potential unintended consequences of removing protections that 
were built into the 1996 Act?
    Ms. Griffin. Well, I think, first of all, whether it is a 
mobile call or a landline call, when someone places a phone 
call, they expect it to work, and a lot of times, they are 
expecting the exact same guarantees they had on the traditional 
copper network, even if they are making the call via a wireless 
network. Also, wireless networks rely on wireline networks for 
backbone--for their backbone service. So we can't ignore 
wireline just because more people have cell phones.
    And additionally, 100 million people still have traditional 
copper-based service, and 85 million of those people have it in 
addition to another type of voice service, usually wireless. I 
don't think that is because they like paying two bills. I think 
that is because they get protections from the landline service 
they don't get elsewhere.
    Senator Markey. OK. Do you all agree that we should keep 
the protections from the 1996 Act on the books, even as we move 
more toward a wireless world? Do you all agree with that? Ms. 
Smith?
    Ms. Smith. Yes.
    Mr. Banks. Yes. I think from our perspective, the network--
--
    Senator Markey. Ms. Honorable? Mr. Banks?
    Mr. Banks.--compact idea that Chairman Wheeler has 
articulated is--is something we believe in, and defining those 
and figuring out how to best apply them to everybody is a 
challenge.
    Senator Markey. OK. Thank you all so much.
    Thank you, Madam Chair.
    Senator Klobuchar [presiding]. Thank you very much.
    I have a few more questions, and then I think we are going 
to be joined by Senator Booker.
    Our public alert systems are crucial to making sure that 
the public is notified of any oncoming danger. In my State, it 
is very important because of tornados. We actually have a lot 
of tornado touchdowns in Minnesota.
    Mr. Schulzrinne--OK, how do you say it again?
    Mr. Schulzrinne. Schulzrinne.
    Senator Klobuchar. Schulzrinne. OK. It is almost as good as 
my name----
    [Laughter.]
    Senator Klobuchar.--so there we go. How will pubic alert 
systems operate in an IP-enabled world?
    Mr. Schulzrinne. So public alert systems, currently, we 
have essentially a hybrid system between a traditional system, 
namely, the Emergency Alert System, that uses radio and 
television largely; the wireless system that is limited to very 
short messages; and a backbone system, if you like, that is 
behind the scenes, namely, IPAWS, that distributes various 
messages to both.
    I believe that as we move to a mostly IP environment, that 
the existing components will continue to be fulfilling a very 
vital role, but that we can supplement those. In particular, 
the limitations that we have of the wireless emergency alert 
system, the short messages may no longer be necessary in an 
all-IP environment, and importantly, we can now leverage new 
ideas on how to distribute wire--alerts.
    For example, since many people no longer watch TV or listen 
to radio continuously, they have the opportunity, for example, 
to inject alerts into Internet content, be it video streaming 
or maybe through advertising networks that might be placing--
that people might be viewing.
    So we have to see that as an integrated system that is 
available regardless of technology, maintains the legacy 
protections and capabilities, because many of those are robust 
in large-scale disasters in particular, but also provides much 
more precise targeting and much more detailed information.
    Finally, it is important to not just think about the first 
minute or so of an alert, as important as they are, but also to 
think about the whole lifecycle of a disaster. For example, 
during Sandy, it was important to inform consumers as to where 
could they get gasoline, where could they find grocery stores 
that were open, what roads were passable. All of those were 
much more readily conveyed by maps and other IP-based 
information, and so we need to integrate those longer-term 
recovery functions with the important short-term, seek shelter, 
immediate response type of capabilities.
    Senator Klobuchar. OK. Thank you.
    We have talked here about how we can see failure with IP 
over fiber, particularly during natural disasters, and that 
depending on the situation, copper technology can be more 
effective. Mr. Banks, what can be done to ensure that people 
are able to communicate effectively via IP technology? Do you 
think this transition to fiber is the answer?
    Mr. Banks. OK. So I think there are a number of things, 
like Mr. Schulzrinne has said. There is a lifecycle to this. So 
disaster preparedness is important, and there are sites like 
Ready.Gov that our industry contributes to that can help people 
think through what they need to do first.
    Alerting is very important, reliability, and then 
restoration. So we have talked a lot about copper and the 
advantage it has in powering, which is a significant and 
meaningful advantage. But we shouldn't overlook that fiber has 
some advantages. Fiber is generally a more reliable technology 
and less prone to going out, and in general, fiber is quicker 
to restore than copper.
    Senator Klobuchar. Mm-hmm.
    Mr. Banks. So when a tree falls over on a power line and a 
phone line, if the phone line is fiber, it is quicker to 
restore than for copper. So it is a balancing act here, and I 
think we recognize that the copper network and the switches 
that run it are deteriorating. There aren't people making those 
switches. There aren't--there is not a real market for spare 
parts. People are retiring----
    Senator Klobuchar. Are you aware of the copper theft issue?
    Mr. Banks. There is the copper theft issue. Yes. It is very 
driven by the market price of copper.
    Senator Klobuchar. Mm-hmm.
    Mr. Banks. And so, the movement to fiber is----
    Senator Klobuchar. And do you know that Senator Graham and 
I have a bill to try to do something about it?
    Mr. Banks. Well, we have worked with your staff and Senator 
Graham's staff. We are active with a number of State commission 
groups. The copper theft problem is a real problem because you 
don't know your copper is gone until you pick up the phone and 
it doesn't work.
    Senator Klobuchar. Mm-hmm.
    Mr. Banks. So I think you are illustrating that disasters--
there is a large range of disasters, and it is hard to balance 
all of this.
    But the movement to fiber is important, and I think it is 
really consumer education. The FCC has a CSRIC group devoted to 
studying back-up power best practices and how best to inform 
consumers and things. So I do think it is like we need to work 
together on doing the education and understanding the benefits 
of the transition.
    Senator Klobuchar. Of the copper to fiber?
    Mr. Banks. Yes.
    Senator Klobuchar. Mm-hmm.
    Mr. Banks. And reducing copper theft.
    Senator Klobuchar. Thank you. Well----
    Mr. Banks. We are in favor of that.
    Senator Klobuchar.--we really want to get that bill passed 
because, as you know, it is not just because telephone lines--
--
    Mr. Banks. Yes.
    Senator Klobuchar.--it is also about buildings and 
infrastructure, and they have broken into a lot of electric 
companies.
    We have substantial support from every police group, and we 
are working with the veterans community because we have seen 
thefts from veterans' graves of medals on the graves, 200 in 
Isanti County in Minnesota alone. Some just this past week 
because of the value of copper, and yet the scrap metal dealers 
lobby is stopping the bill----
    Mr. Banks. Right, right.
    Senator Klobuchar.--on the floor and have put a hold on it, 
basically, through Senators. And so, anything you can do to 
help, we would appreciate. All it does, as you know, is require 
a check be written when it is over $100, the purchase, so that 
the police can track down, when they need to, who it is that is 
bringing the copper in.
    Many states have those rules in place, but a number of 
states don't. And so, what people are doing is stealing copper 
from whatever source--electric companies, telephone lines, 
veterans' graves--and then bringing it to other states that 
don't have the rules in place, and it's just an outrage, and 
that--the bill won't go through given the widespread support we 
have from the business community and others.
    So I am just talking about it every single day until people 
start to see that this is the kind of bill that is bipartisan, 
with Senator Hoeven and Senator Schumer and others, that needs 
to get done and that they should stop holding the bill up.
    So, thank you. I see that Senator Booker is here, and I am 
going to turn it over to him.
    Thank you.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you so much, Senator.
    First of all, I want to thank you all for being here. 
Forgive me for running in late. But I just think this is a 
critically important issue that we are discussing, and 
actually, Senator, I think your issue is an incredibly 
important one. I can tell you stories about copper theft from 
my days as a mayor.
    You know, Superstorm Sandy actually came into our area, and 
folks in New Jersey and New York area are very, very familiar 
with it. And the communications networks and problems that I 
witnessed firsthand were particularly severe during that time, 
and we experienced power outages, and wireless and wireline 
services were unavailable due to flooding and other storm 
conditions, of which I know you all are very familiar.
    As this technology transition moves forward, I just think 
it is paramount that we have reliable, consistent access to 
these critical safety resources like 911 and others, which, 
again, I am sure you all are very familiar with this.
    What was made crystal clear in the experiences we saw in my 
region, in places like Fire Island, New York, and Mantoloking, 
New Jersey, is how technology transitions can pretty 
significantly impact consumers in ways that is not always 
evident at the outset, and there have been a lot of very strong 
feelings about this. And so, I guess the first question would 
be, simply, do you agree that there are many instances in which 
a copper network must be maintained because IP services do not 
meet all the needs of consumers? And that is a really open 
question to the panel.
    Ms. Griffin. Thank you.
    I would say that we need to maintain the protections of the 
networks that we have now, as we are figuring out what the new 
technologies are and what opportunities we have to make sure 
that they are serving the same values as the existing networks 
did.
    As you mentioned, after Hurricane Sandy in Fire Island and 
Mantoloking, New Jersey, Verizon decided to replace its copper 
network with a fixed wireless service, and there was an outcry 
from everybody because people really cared, and they realized 
that this service wasn't as good as what they had on the copper 
service. People had heart monitors, security systems, Internet 
access that they lost because the fixed wireless service didn't 
offer it.
    And luckily, the FCC and the State commission there, in New 
York at least, were able to step in and protect consumers, and 
Verizon is now deploying fiber instead. But we still need to 
make sure that consumers know the differences between these 
technologies and are prepared for more outages.
    Senator Booker. Somebody want to--yes, Ms. Smith?
    Ms. Smith. Yes, if I may contact--or comment as well? 
Public safety's view is that it is so important to maintain, 
and I am echoing Ms. Griffin, on exactly what they get now. 
They--it needs to be seamless when we move towards this 
transition.
    But the other thing, as far as public safety is concerned, 
is we are excited for the future, and we look to see the 
improvements. Anything, the capabilities to improve 
communications is so important. But currently, yes, absolutely, 
we need to maintain what the expectations are from our 
consumers.
    Senator Booker. And maintaining that means maintaining the 
copper, correct? Or no?
    Ms. Smith. If that--if that means maintaining----
    Senator Booker. Can you push your button, please?
    Ms. Smith. Oh, I am sorry. Yes, if that means maintaining 
it at this point, yes. But again, knowing that as the future 
approaches, that we need to look at those capabilities and what 
we can do to improve.
    Senator Booker. OK. Any other thoughts?
    Ms. Honorable. Senator, thank you for the question, and 
certainly NARUC would concur.
    Our core objective is safety and ensuring the safety of the 
people that we serve. And to respond to some of the tenets that 
you have mentioned in your remarks, coordination of this effort 
is important. We have learned so much from Hurricane Sandy.
    Our National Association of Utility Commissioners, NARUC, 
issued a resolution after Hurricane Sandy, calling for better 
coordination, heightened coordination, not only with regard to 
mutual assistance and how the utilities have traditionally 
worked, what do we do in response to a storm of such a 
magnitude as Hurricane Sandy? What are we doing to educate the 
public?
    And we are--we believe that the--we are technology neutral. 
So whatever the platform might be, the consumer comes to expect 
a certain level of service, a certain level of quality of 
service, certain consumer protections, and we support 
continuing that. We also support preparedness efforts, 
coordinating among the electric sector, the telecom sector, the 
Departments of Emergency Response throughout the country, 
county and local officials.
    We also, too, want to ensure reliability. That is our core 
mission, as economic regulators, ensuring safe, reliable, and 
affordable utility service.
    Senator Booker. And I guess my response is that we all want 
the same--we all have the same ambition and the same goals. My 
concern, especially as we get into hurricane season again, 
which means that the Gulf Coast and the East Coast could see 
another major weather event, is how do we--are we stress 
testing?
    How are we sure that as we go through this time of 
transition, that we don't have more vulnerable communities that 
can find themselves--and again, as a guy who was in the 
trenches, sort of, with my first responders trying to deal with 
this crisis, it really is a difference between life and death.
    And so, my worry is, is not that we--that we are not all 
affirmatively desirous of the same thing, but what are we doing 
to--during this time of transition to ensure that we get the 
result that we all want?
    Ms. Honorable. Senator, I believe the work that we are 
doing is the work we do in advance, the work we do proactively. 
In Arkansas, as I am sure it is in New Jersey, we work 
proactively around tabletop exercises. I will participate in 
one this month, in which we are very focused on continuity of 
operations efforts and ramping up the broad range of 
potentials.
    So it is a hurricane in your part of the country. For us, 
it is ice storms and tornados, and any other severe weather 
event that might occur, as well as other attacks on the grid or 
disruptions to the grid. But we believe that the core effort 
has to be proactive.
    Senator Booker. No, and I agree. I am sorry to interrupt. 
And I had the privilege and pleasure of being in your state 
this weekend and surveyed the tornado damage in Mayflower.
    I guess, to be even more specific with my question, and 
anybody on the panel can pick this up, is that I don't want us 
to be doing conversions that are creating problems that we 
could be anticipating and that we or that FCC, frankly, could 
be helping us to avoid. And so, what happened in Mantoloking 
and Fire Island is that we made a technology switch that proved 
far less reliable, especially in a crisis. Consumers not only 
didn't get what they want, but I felt that they were much more 
exposed to a crisis.
    And so, I guess what I am saying is that I understand. I 
have gone through my--my team has gone through our tabletop 
exercises ad nauseam, as you should do when you are in the 
field and dealing from an executive position at local 
government. But I guess my concern is on this technology 
transfer--transition, how do we make sure that we are 
avoiding--and if we are seeing that we are creating a situation 
that is ripe for a crisis to emerge, how are we not deciding 
not to do that or not to do that transition from copper, for 
example?
    Mr. Schulzrinne. Let me--thank you for the interesting 
question. Let me address it from two technical perspectives.
    As others have alluded to, in principle, rain and fiber are 
a much better combination than water and copper. So, in long 
term, I believe, and particularly in flooding-prone areas, the 
goal should be that we have a fiber-dominated network simply 
because it will continue to function even when flooded.
    The other aspect is that as communities plan their utility 
infrastructure, considering burial of utilities, particularly 
as they transition to fiber, would probably make the 
infrastructure much more reliable. So coordinating, and this is 
for long term perspective, as we do road repairs and roadwork, 
so that utilities, particularly fiber-based utilities, are 
planned for--dig-once type of policies, coordination between 
communication providers and the local department of public 
works--so that conduits are buried, for example, when roads are 
opened up.
    That, besides opening up new opportunity for higher 
bandwidth communication, also, I believe, will facilitate the 
deployment of much more robust infrastructure that is not 
susceptible to wind damage and is much more resilient when 
water comes flooding in.
    Senator Booker. OK. All right. And allow me to push 
forward, if I can, with one more question, with the permission 
of the chair.
    One of the things I am concerned about is the penetration 
then of those changes, and I agree with the technology shifts. 
Ultimately, I think I am in concurrence with what you are 
saying. That is the ultimate goal. During a time of transition, 
I am worried about holes or gaps.
    But if I can go down that way of this idea of the 
penetration we are seeing sort of equally applied. You know, 
access to technology is, to me, a great democratizing force in 
our society. It is powerful in terms of being a ladder for 
social and economic mobility.
    But there are--right now, there are really significant 
discrepancies in the adoption and availability of a lot of 
these technologies, such as broadband, in lower income 
communities. And so, I am concerned about that these 
communities are often the vulnerable populations and that they 
are often adversely affected by technology transitions.
    And so, the question very simply is, is what can we do--
what should we be doing to ensure that reliable voice and 
broadband services are delivered to the public, regardless of 
economic background or geography?
    Mr. Banks. Well, if I can just jump in a little bit? I 
think it is really two questions. One question is the--the 
rural question. How can you get these facilities that are very 
expensive built in very rural areas? And that the FCC and a 
number of states have Universal Service Funds that help get 
infrastructure built.
    The other question, the adoption question, is really a 
question that there has been a lot of study of, whether it is 
at NTIA, at FCC, states, Pew, many places. And there seems to 
be a real consensus that there are a couple of barriers to 
adoption. One is, you know, having a computer or a smartphone. 
Does a family have one of those?
    Education is important. There are, for whatever reason, a 
chunk of Americans who believe the Internet does not offer 
value to them. And, you know, an education effort with them is 
important.
    There are a lot of programs for adoption. The FCC is 
considering helping to fund or create an E-Rate program for 
broadband adoption. So there is a lot going on that recognizes 
what you are illustrating, that there is an adoption issue in 
America.
    Senator Booker. And so, you are saying that the research is 
showing that the issue, some of it has to do with the end 
user's lack of appreciation or access to some of the--to 
laptops or to smartphones. But then--but some of your answer 
indicates that it is on us as well, that we are not getting it 
to the end user in the way that we could be?
    Mr. Banks. Certainly in rural areas it is a challenge to 
build networks where there are very, very few people, and that 
is where the availability gap would be.
    Senator Booker. And is the shortfall--and again, I am just 
looking for action steps to address this, and there are a lot 
of conversations I am having with folks that are trying to make 
cheap laptops available for students, and really exciting 
things going on. But on the getting the technology to that end 
user, give me your sort of unbiased appreciation of the 
Universal Service Funds. Do we have the resources necessary to 
take on that end of the issue, and if not, what would--what is 
a more realistic approach?
    Mr. Banks. Well, the FCC is in the middle of reforming the 
USF fund to make it more efficient and more focused. So I think 
if they can get that operationalized and in the field, we will 
really be able to see if there is enough money in that fund. 
There is about $4.5 billion in the high-cost fund that is 
devoted to expanding availability.
    Senator Booker. And can you just for a Senator that is sort 
of new, can you tell me what some of the issues that you are 
working on to make that fund more efficient?
    Mr. Banks. How best to target funding. How best to identify 
areas that really need the funding, versus areas that can get 
by without it. The current fund is sort of an old fund that 
allocates money in kind of unusual ways. This is a much more 
modern, targeted fund with a cost model to focus the money.
    Senator Booker. Unusual ways. That sounds like a euphemism.
    [Laughter.]
    Mr. Banks. Well, the old fund sort of was built on a series 
of implicit subsidies that were not well quantified, and in the 
funds itself, particularly for the larger carriers, was based 
on statewide averaging, so that you could have a state with 
dense areas that, on average, would seem like it didn't need 
funding, although there could be parts of the state that could 
be very rural that did need funding.
    So we are trying to target the funding much more accurately 
now.
    Senator Booker. OK. I am grateful. Thank you very much.
    Senator Klobuchar. OK, very good.
    Well, I want to thank our witnesses and thank Senator Pryor 
for holding this hearing, and Senator Wicker.
    And we will keep the record open for 2 weeks for questions. 
It was a really interesting discussion with a lot more work to 
do.
    And the hearing is adjourned. Thank you to our witnesses.
    [Whereupon, at 10:42 a.m., the hearing was adjourned.]
                            A P P E N D I X

     Response to Written Questions Submitted by Hon. Mark Pryor to 
                          Henning Schulzrinne
    Question 1. What measures are being taken by the FCC to protect 
consumers who use services such as alarms, health monitoring, and other 
personal emergency response services as the IP transition is taking 
place, as well as after the transition?
    Answer. There are three separate technical issues that affect the 
services you describe during the transition, depending on the nature of 
the services and the transition. These issues are, in part, raised in a 
recent FCC Notice of Proposed Rulemaking (NPRM) (FCC 14-185 \1\). The 
three main technical concerns are:
---------------------------------------------------------------------------
    \1\ http://www.fcc.gov/document/fcc-takes-consumer-competition-911-
safeguards-tech-transitions-1

        Transition from landline to wireless-only: If carriers cease to 
        offer landline residential voice services, services that rely 
        on either voice-data (modem) or DSL may not be able to continue 
        to function. This issue arose when Verizon announced plans, 
        later abandoned, to offer only 3G wireless service to residents 
        of Fire Island, New York, after Hurricane Sandy had severely 
---------------------------------------------------------------------------
        damaged the island's wireline infrastructure.

        Analog terminal adapter incompatibility: Devices that rely on 
        voice modem services for low-speed data may not function 
        properly with some analog terminal adapters (ATAs) that are 
        used to connect in-home devices to landline VoIP networks. Such 
        adapters are typically built into cable modems. There is 
        currently no interoperability testing mechanisms or 
        certifications for such devices, so that making modem-based 
        devices work with such systems is a trial-and-error process. 
        The FCC's Technological Advisory Council (TAC) has raised this 
        issue recently; the Commission intends to follow up to 
        encourage industry standards and interoperability 
        organizations, such as ATIS, TIA or CableLabs, to take on this 
        challenge.

    Battery backup: If commercial power fails, alarm systems, even 
those with their own backup power, will only function if the ATA and 
cable or DSL modems provide backup power. The NPRM cited above asks how 
consumers can best be protected against such outages, e.g., by allowing 
use of standard consumer batteries or USB power packs instead of 
special-purpose lead acid batteries. (Currently, some cable and DSL 
modems with ATA functionality include battery backup functionality. The 
duration of coverage varies, but is typically eight hours.)

    Each of these issues requires a different approach. Some alarm 
systems, for example, can use cellular data services, but this may not 
work where cellular coverage is unavailable or the signal is too weak 
for indoor coverage. In roughly 85 percent of the country, consumers 
may be able to switch to a VoIP service offered by the local cable 
company if the incumbent LEC no longer offers landline voice. The table 
below summarizes which of the two main technology transition options 
may cause the issues noted above.

----------------------------------------------------------------------------------------------------------------
                  Transition                         Low-speed data        ATA compatibility     Power backup
----------------------------------------------------------------------------------------------------------------
Landline-to-fiber                                             available                   3                   3
Landline-to-cellular                               may not be available                                       3
----------------------------------------------------------------------------------------------------------------


    Question 1a. Additionally, how is the FCC working with network 
operators and others to promote functionality of these services on 
fiber optic networks just as they have on traditional copper networks?
    Answer. As noted above, two separate technical problems need to be 
addressed, namely the ability to use low-speed data over voice channels 
and the power backup problem. The NPRM asks how to best solve the power 
backup problem. For many networks, ATAs appear to work well with low-
speed data services such as alarms, but we have no good estimate on 
whether problems are indeed isolated or more common. I believe that the 
technology transition trials will provide quantitative evidence and 
opportunities to assess the best approach. I encourage alarm equipment 
vendors to work with carriers and ATA vendors to improve 
interoperability through industry standards bodies.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                          Henning Schulzrinne
    Question 1. Because most alarm systems currently depend on 
traditional telephone services, as we move to IP-networks, it is 
important that we consider compatibility issues and the implications 
for homeowners and businesses reliant on alarm systems for safety. I am 
concerned that consumers moving to IP networks will unknowingly 
disconnect their alarm systems and leave their homes and businesses 
vulnerable. How will IP providers work with consumers to avoid 
instances of unintentional system disruptions and ensure a smooth IP 
transition that does not compromise safety?
    Answer. Please see the response to Chairman Pryor's question for 
general background. There are three kinds of IP (or VoIP) providers: 
(1) ILECs that transition from landline service to VoIP (e.g., Verizon 
FiOS Digital Voice in New Jersey); (2) cable companies that offer voice 
services; and (3) over-the-top VoIP companies.
    The NPRM includes proposals to update rules protecting consumers 
faced with network changes and discontinuance of service as the 
transition moves forward. Ensuring consumers have the information they 
need to make informed decisions is one of the top goals of the NPRM.

    Question 2. Alarm systems connected via traditional telephone 
service have line seizure capabilities that enable the systems to 
communicate with monitoring stations in the event of an emergency and 
allow for the timely dispatch of emergency services. What are the line 
seizure capabilities of VoIP networks?
    Answer. There are two cases: In the most common case, the 
residential VoIP connection simply connects to the inside analog phone 
wiring. In that case, assuming proper installation, the alarm system 
still retains the same line seizure capabilities as before.\2\ Some 
over-the-top residential interconnected VoIP services may connect 
directly to a cordless or corded phone, or use a software phone. In 
those cases, the alarm system would have no access to the phone service 
at all. Many commercial (e.g., small business) VoIP systems have IP-
based end systems that connect to the VoIP system (PBX) via Ethernet. 
In that case, having a separate device that connects only to the alarm 
system would be advisable, as VoIP PBX can easily place multiple 
simultaneous calls for the same number.
---------------------------------------------------------------------------
    \2\ In standard residential landline alarm systems, the outside 
phone line is connected to a special jack (``RJ31X'') for the alarm 
system, which in turn connects to the phone jacks in the home. Since 
the special jack is first in line, the alarm system can disconnect 
other phones in the home and seize the line if needed.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                             Jonathan Banks
    Question. Some features that work for the traditional network based 
phone services (such as alarm signaling) may no longer work once the IP 
Transition is complete. How are your member companies working with 
consumers to ensure they are well informed about the functionality of 
these services over IP-based networks?
    Answer. In most cases, customers will gain functionality rather 
than losing it when they migrate to IP-based services. A fully IP-based 
network provides a more efficient platform than traditional 
communications networks, and one that is far more flexible for 
innovation in services and how they are provided to customers. As a 
general rule, customers can continue to use fax machines, medical 
monitoring devices, home alarms, and accessibility services in a manner 
similar to what they experienced with traditional TDM service. For 
example, millions of customers across the country are currently using 
alarm systems with IP-based services.
    Our industry is working to ensure a smooth transition to fully IP-
based networks and services in several ways. Customers are informed of 
the functionality of their services during the ordering and 
provisioning process. Customers receive detailed information about 
those changes during initial contacts with a company's representatives 
and again at the time of installation. Technicians are trained to work 
through issues related to services that may require special handling 
(e.g., home alarm systems) during installations. Information is also 
generally provided on a company's website or in a product guide. AT&T, 
as part of the wire center trials that it is conducting in Florida and 
Alabama, has begun a special community outreach effort to educate 
consumers about the IP Transition and any changes that may come about 
as older technologies are replaced with newer IP-based technologies.
    In addition, our industry is working with standards bodies to 
address a range of potential public safety issues raised as we 
transition to more modern IP-based networks. For example, the Alliance 
for Telecommunications Industry Solutions announced in June of this 
year the formation of the IP-Transition of Public Safety Related 
Applications Task Force. The press release announcing the formation of 
the task force notes that ``the task force will work with a broad array 
of industry associations to analyze the issues central to transitioning 
critical public safety communications infrastructure to All-IP 
technologies. Based on its findings, the Task Force will make targeted 
recommendations to both public safety and industrial associations and 
state and local regulators. It will also engage in outreach and 
education efforts to the professionals who manage critical circuits to 
increase their understanding of and confidence in the evolution to next 
generation communications.
    Our industry is committed to ensuring that the transition to more 
modern communications networks protects public safety and supports the 
services that consumers want and value.

                                  [all]
                                  
</pre></body></html>
